<html>
<title> - CHINA'S TREATMENT OF FOREIGN JOURNALISTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                CHINA'S TREATMENT OF FOREIGN JOURNALISTS

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 11, 2013

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                  U.S. GOVERNMENT PRINTING OFFICE
86-658                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="385f4857785b4d4b4c505d5448165b575516">[email&#160;protected]</a>  


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

SHERROD BROWN, Ohio, Chairman        CHRIS SMITH, New Jersey, 
MAX BAUCUS, Montana                  Cochairman
CARL LEVIN, Michigan                 FRANK WOLF, Virginia
DIANNE FEINSTEIN, California         ROBERT PITTENGER, North Carolina
JEFF MERKLEY, Oregon                 MARK MEADOWS, North Carolina
                                     TIM WALZ, Minnesota

                     EXECUTIVE BRANCH COMMISSIONERS

                            To Be Appointed

                    Lawrence T. Liu, Staff Director

                 Paul B. Protic, Deputy Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Sherrod Brown, a U.S. Senator from 
  Ohio; Chairman, Congressional-Executive Commission on China....     1
Wong, Edward, Correspondent, the New York Times, Beijing Bureau..     4
Beech, Hannah, East Asia Correspondent and China Bureau Chief, 
  TIME...........................................................     5
Dietz, Robert, Asia Program Coordinator, Committee to Protect 
  Journalists....................................................     7
Cook, Sarah, Senior Research Analyst for East Asia, Freedom House     9

                                APPENDIX
                          Prepared Statements

Wong, Edward.....................................................    30
Dietz, Robert....................................................    31
Cook, Sarah......................................................    36

                       Submission for the Record

Written Statement of Paul Mooney, Freelance Journalist...........    41


                CHINA'S TREATMENT OF FOREIGN JOURNALISTS

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2013

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 3:31 
p.m., in room SVC 203-202, Capitol Visitor Center, Senator 
Sherrod Brown, Chairman, presiding.
    Present: Lawrence Liu, Staff Director; Paul Protic, Deputy 
Staff Director; and Jesse Heatley, Senior Research Associate.

 OPENING STATEMENT OF HON. SHERROD BROWN, A U.S. SENATOR FROM 
  OHIO, CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Brown. Thank you for joining us today for this 
roundtable. This is either our fourth or fifth roundtable like 
this, usually staff-led, and today will mostly be staff-led by 
the Staff Director, Lawrence Liu, who is as good as they come 
on understanding and bringing questions out and listening to 
people and reporting and making a big difference that way.
    This one is as important as any we have done. I have to 
preside, in about a half an hour, over the Senate, so I will be 
leaving. But I wanted to kick it off and introduce each of the 
panelists and announce, first of all, that the media 
organizations have come here today at our request. They didn't 
seek us out, we asked them to come--each of them to come. We're 
appreciative of all that could join us today because we have a 
lot we need to know and a lot to learn. I think they probably 
will have a lot to say.
    When I think how far they came to get here--Edward is based 
in Beijing, Hannah is based in Beijing and has come down from 
New York, as have Bob and Sarah. Paul Mooney, who was 
originally scheduled, is in San Francisco, and couldn't join us 
because of health issues.
    His record as a freelance journalist has shed such light on 
what's happened in the People's Republic of China. He is a 
Vietnam War vet that kind of fell in love with that part of the 
world and has devoted much of his life there. He has submitted 
a statement and I believe he is watching this livestream in 
some way or another.
    We are calling on China immediately, this Commission and 
all of us in the Senate and House that care about these issues, 
to immediately cease its policy of harassing foreign 
journalists, period. They have denied and delayed visas, they 
have blocked Web sites of foreign media in China.
    That is not the way to be integrated into the world economy 
and in the world generally. We ask and demand that China back 
off this policy. If the situation does not improve, we will 
consider other steps that Congress may take to address this 
issue.
    Our approach is critical. China, as we all know, is the 
world's most populous nation. It is the United States' second 
leading trade partner. It faces daunting challenges. We know 
the challenges facing China, everything from crippling 
pollution and widespread corruption to suppression of basic 
freedoms we have taken for granted. And, as we have seen most 
recently but for some time, China is increasing its military 
posture in the region. The whole point is, what happens in 
China affects the United States, affects the world community--
Africa, Asia, North America, South America, and all the world.
    Therefore, it is imperative that foreign journalists, that 
journalists worldwide, get an opportunity to travel freely in 
the People's Republic of China and report back what they are 
seeing and what they are hearing and help to paint a picture, 
as good journalists are able to do, about what is going on 
there. We cannot get that picture, we cannot get an accurate 
depiction or accurate picture, without foreign journalists.
    My wife is a journalist. She has for years helped to 
educate me about the importance, whether it is investigating 
corruption or whether it is shining a light on people's lives 
or whether it is watching government and business and the way 
they act in the marketplace, the political marketplace and the 
economic marketplace. We know that this panel of journalists up 
here paints that picture.
    Who will report on what is happening with the Uyghurs, who 
will report on Tibet, who will report on the plight of human 
rights activists if not foreign independent journalists? Who 
will investigate labor conditions in factories? We know that we 
buy so much in this country made in the People's Republic of 
China.
    Under what conditions are those products made? It has to be 
the foreign press because we know that with the attitude of the 
government, the People's Republic of China, that China's own 
journalists are hamstrung by severe censorship. That is why the 
recent actions from the government to shut down foreign 
journalists is so troubling.
    What is happening now has few precedents in China or 
anywhere else. If 23 reporters do not get their visas by the 
end of the year, the New York Times and Bloomberg may not be 
able to cover China at all. Imagine that. Those two very 
respected worldwide news organizations who have reporters 
darned near everywhere will not be able to paint that picture 
of China, whatever that picture might be in the coming months.
    China has now made this a fair trade issue by blocking 
access to the Web sites of the New York Times, of Bloomberg, 
and the Wall Street Journal, of Reuters. In November, Chinese 
officials denied a visa to the journalist whom I mentioned 
earlier who is watching from San Francisco, Paul Mooney, after 
he had been reporting there for 18 years.
    For years, foreign journalists have had to operate not in 
the safest or the easiest or the best conditions, having to 
endure periodic beatings, interrogations, and harassment just 
to do the job that journalists worldwide should be able to do 
without those kinds of burdens.
    But what is new is that China is now threatening to use its 
weapon of last resort, actually closing the country off to the 
rest of the world. That is why we must do all we can to prevent 
that. That is why we asked--Larry, I, and Cochairman Smith 
asked--these news organizations and these individuals to appear 
on this panel today at our request, and fortunately they have 
agreed to do it.
    I will introduce the panelists all at once and then, Mr. 
Wong, I will start with you and we will work our way down this 
way.
    Edward Wong is a correspondent for the New York Times in 
the Beijing bureau. He's been with the Times since 1999. He was 
previously a correspondent in Baghdad, covering the Iraq War 
from 2003 to 2007. He received a Livingston Award for his Iraq 
coverage. He was among a group of reporters from the Times' 
Baghdad bureau named as finalists for the Pulitzer Price in 
International Reporting.
    The second panelist is Hannah Beech, East Asia 
correspondent and China Bureau Chief for Time Magazine. She 
covers politics, conflicts, culture, diplomacy, and other 
regional issues from a base in Beijing. She joined Time in 1987 
as a reporter in Hong Kong, and later spent time in Shanghai 
and Bangkok.
    She is one of the few international journalists to report 
widely from Burma, and she has won numerous reporting awards, 
including being named Journalist of the Year by the Society of 
Publishers in Asia in 2011.
    Bob Dietz is the Asia program coordinator for the Committee 
to Protect Journalists. He has held that position since 2006. 
Mr. Dietz previously worked as a journalist in Africa, the 
Middle East, Asia, and the United States. He has served as 
Bureau Chief for NBC News in Seoul and Manila, and was senior 
editor of Asia Week Magazine for seven years.
    Last, we are lucky to have Sarah Cook, Senior Research 
Analyst for East Asia at Freedom House. Ms. Cook has appeared 
before our Commission a number of times and recently authored 
an important report on how the Chinese Communist Party's media 
restrictions affect news outlets around the world. She is the 
author of several articles and numerous country reports 
examining press freedom and democratic governance.
    I think that all of these journalists have probably a 
number of things in common, and one of them is courage. You 
have listened to where they have been stationed, where they've 
reported, no easy assignments. Oftentimes they're in harm's 
way. They are in many ways like the soldiers we send overseas, 
and sometimes with fewer protections than they have. For that, 
we are also grateful for your service to our country and to the 
world by what you do.
    So Mr. Wong, if you would begin. Each of you will take five 
minutes, please, around five minutes, and then Lawrence Liu 
will begin the questions after that.

 STATEMENT OF EDWARD WONG, CORRESPONDENT, THE NEW YORK TIMES, 
                         BEIJING BUREAU

    Mr. Wong. Thank you, Senator. I will open with a statement 
from the New York Times, the institution. It is not a statement 
from myself, it is a statement that is signed by Joe Abramson, 
our executive editor.
    In the last year, the New York Times and other major 
foreign news organizations have been confronted with 
deteriorating conditions for doing journalism in China. The 
Communist Party and Chinese Government have stepped up their 
efforts to shape news coverage and suppress stories they find 
objectionable, applying pressure in various forms and 
inarguably unprecedented fashion.
    The situation is the most serious in years and poses an 
urgent threat to our ability to report freely and 
comprehensively on the world's second-largest economy. Most 
recently, Chinese officials have halted the regular year-end 
renewal process for the residency visas of nine Times 
journalists. If the renewal process does not go forward, these 
journalists and their families will be forced to leave China 
before the end of the year.
    With the first visas expiring in less than two weeks, the 
Times could be left without reporters in Mainland China for the 
first time in nearly three decades. The Chinese Government has 
also refused, for many months, to provide visas for two 
journalists hired for the Beijing Bureau by the Times.
    Philip Pan, the incoming bureau chief, has been waiting for 
more than a year and a half. Chris Buckley, who was hired from 
Reuters in the fall of 2012, had to leave Beijing one year ago 
when his visa from his previous employer expired and the 
government declined to provide a new one for the Times.
    He has been forced to live in Hong Kong, apart from his 
wife and daughter who reside in Beijing. In addition, China has 
blocked access to the Web sites of the Times, including a new 
Chinese-language site, since the October 2012 publication of a 
report on the hidden wealth of family members of the Prime 
Minister at the time.
    This severely hampers our ability to provide quality 
journalism to readers in Chinese. This fall, we started an 
online Chinese-language version of T Magazine, the Times' 
culture and lifestyle publication, only to have that blocked in 
November after publication of other stories that the 
authorities deemed unacceptable.
    In conversations in the last year with the Times, Chinese 
officials have pointedly objected to articles that explore the 
intersection between elite politics and the economy. In other 
words, they are asking the Times and other media organizations 
to refrain from the kind of reporting that we do in every part 
of the world, including in the United States.
    As China's economy becomes more deeply intertwined with 
that of the United States and other nations, covering the full 
range of issues in the country becomes increasingly important.
    Senior executives at the Times have tried to explain our 
mission and our viewpoint to Chinese officials. The Times 
increased those efforts last year when our Web sites were 
blocked and our visa applications for new journalists frozen.
    Despite our attempts at dialogue and at resolving 
misunderstandings, Chinese officials continue to treat coverage 
in the Times as hostile. We find ourselves at an unusually 
uncertain moment, one that involves our core principles of open 
journalist inquiry and also our ability to reach the large and 
news-hungry online audience in China.
    The Times remains committed to coverage of China. We have 
invested great resources in this and we have demonstrated a 
willingness to report on all aspects of China, its politics, 
economy, foreign policy, environment, culture, sports, even 
fashion.
    We will continue to report on China even if our journalists 
are expelled from the country, though the range in depth of our 
coverage will suffer, as would our readers' understanding of 
China. We also worry that expulsions would have a profound 
chilling effect across news media organizations.
    As always, we are willing to work with all parties to 
ensure that we can remain engaged with China while performing 
our journalistic mission. That has been the goal of the Times 
in China since the country's leaders embraced a policy of 
reform and opening up decades ago.
    Thank you.
    [The prepared statement of Mr. Wong appears in the 
appendix.]

 STATEMENT OF HANNAH BEECH, EAST ASIA CORRESPONDENT AND CHINA 
                       BUREAU CHIEF, TIME

    Ms. Beech. Thank you, Senator, again, for inviting me to 
participate in this roundtable discussion. First of all, a 
little bit of background. I have been accredited as a foreign 
correspondent in China since 2000, the whole time with TIME 
Magazine. Since then, despite some hassles, I have had no 
problem getting approval from the Chinese Foreign Ministry to 
live and work in China, despite writing articles that obviously 
displease the Chinese authorities.
    I know that these certain articles have displeased the 
authorities because I have been called in multiple times in 
both Beijing and Shanghai and lectured about my coverage. At 
one point I was called in twice in quick succession for stories 
that I had written, one on a little-known HIV crisis in rural 
China and another on baby smuggling in southwestern China.
    I was told by my Foreign Ministry handler that I had two 
strikes, and the next time I would be out. I suppose I could 
compliment the Chinese official for his knowledge of baseball. 
The threat of expulsion was made quite overtly, however, I have 
never compromised my coverage and I was never thrown out of 
China.
    Chairman Brown. Can I interrupt you for a second?
    Ms. Beech. Yes.
    Chairman Brown. Do you feel physical threat, physical 
danger, or do your colleagues when they are called in on 
articles like that, or it never gets to that?
    Ms. Beech. You are meeting in the Foreign Ministry in these 
very big chairs with doilies, antimacassars, on the side that 
make you feel quite small. But no, I didn't feel any sense of 
physical intimidation.
    Chairman Brown. All right.
    Ms. Beech. Just to continue, two years ago I wrote an 
article on self-immolations in Tibetan regions of China. I 
snuck into an area where foreign journalists were technically 
off limits. As a consequence of that, my annual visa renewal 
process two years ago dragged on and on. My handler at the 
Foreign Ministry mysteriously could not meet with me, even 
though those days he could meet with somebody else.
    He also, when we finally did meet, sent me to a lecture on 
Tibetan Buddhism and all the things that I had apparently 
misunderstood about Tibetan Buddhism. I was offered what I 
would call a polite, but relatively pointed, critique of my 
China coverage.
    I was finally given an appointment to reapply for my visa 
on December 31, which was exactly the same day that my visa 
expired. I was pretty confident that my visa would be renewed, 
but it made me sweat a little bit.
    Like many foreign journalists in China, I presume that my 
phone is tapped and email monitored. My email account was 
obviously hacked when I was in Dharamsala in India where the 
Tibetan government-in-exile is based.
    I've been followed, obviously, and presumably also not so 
obviously. I have had a Chinese assistant beaten for working 
for me, and sources jailed. In fact, Chen Guangcheng, the blind 
legal advocate who now resides in the United States, met with 
me in Beijing just hours before he was subjected to years of 
detention.
    Having said all this, my general feeling is that compared 
to 2000 when I first started working for TIME in China, it is 
easier to operate as a foreign journalist in China. It used to 
be that we were supposed to get permission from the Foreign 
Ministry every time we left the city where we were accredited.
    In point of fact, it was quite hard to get that permission 
so foreign journalists basically ignored the rule. But it meant 
occasionally if you were stuck in a place and caught in a place 
where you were not supposed to be, that you would have to write 
what were called self-criticism letters to explain your 
behavior.
    In 2008, I think things got significantly better for the 
foreign media operating in China. The rules changed and we were 
allowed to travel to most places within the country without 
permission. I think there was a general feeling of more 
openness, not just for journalists but for NGO workers and 
other members of civil society.
    But as the Arab Spring ignited and presumably sparked fears 
in China about social unrest at home, things have tightened 
again. The crackdown has not just affected foreign media. 
Dozens of dissidents, scholars, and academics, Chinese 
journalists, and others have been jailed or intimidated, 
suffering fates much worse than the foreign press has 
experienced.
    The treatment of my colleagues at Bloomberg, the New York 
Times, Reuters, Paul Mooney, and Al Jazeera, as well as brave 
Chinese who have independent voices against injustice, is for 
me very deeply concerning.
    I will close with another sports analogy which may please 
my former handler at the Foreign Ministry: I think the ball is 
in their court and I hope they know how to play it well.
    Thank you very much.

STATEMENT OF ROBERT DIETZ, ASIA PROGRAM COORDINATOR, COMMITTEE 
                  TO PROTECT JOURNALISTS (CPJ)

    Mr. Dietz. Thank you very much, Senator. Thanks for the 
opportunity.
    I have prepared remarks which are available outside. I'm 
just going to tear through some of these quickly and make some 
of the more important points. Many of them have already been 
made by Edward and Hannah.
    The general feeling in China is, with the arrival of 
President Xi Jinping's government in 2012, foreign journalists 
based in China have come under more pressure.
    The Foreign Correspondents Club of China from whom I will 
be drawing a lot of information said, about the visa problem 
that not just Bloomberg and The New York Times are facing them, 
but other journalists, such as Paul Mooney, Melissa Chan, and 
others. The authorities are giving no public explanation for 
their actions, leading to the impression that they have been 
taken in reprisal for reporting that displeased the government.
    China's officials have said that foreign media in China 
must abide by Chinese laws and regulations, but they have never 
explained which laws and regulations those are. This 
information comes from the Foreign Correspondents Club of 
China, which has about 200 members.
    Unease around visa renewals has long been a problem in 
China. In the past, journalists have always applied for visas 
in November and December and have generally gotten them later 
in December. A journalist visa expires a year after the day it 
is issued and if, say, they are issued a visa on December 15, 
then next year it will expire on December 14.
    Larger organizations with many employees submit visas on 
different dates, each with a different expiration date, so 
visas are very often a rolling problem for them.
    Under new rules announced in June and July, all visas, not 
just those for journalists, must go through a screening by the 
Public Security Bureau [PSB], and that could take up to 3 
weeks, 15 business days, the PSB made clear. At the time there 
were a lot of complaints from journalists, but these visa rules 
also applied to any other foreigners working in China--it was 
not just a change directed at journalists.
    The Public Security Bureau, when they made this 
announcement, said that they would try and expedite visas and 
try not to cause problems.
    As one journalist who worries that their visa will not be 
renewed told me, the big question right now is, are the Chinese 
authorities bluffing? From what that one journalist can 
determine, there is no real way to tell beyond waiting it out.
    This sort of situation creates real logistical issues for 
many reporters. If the government decides on the day before the 
visa's expiration date that the journalist can stay, the 
journalist may have already shipped everything home, have taken 
their kids out of school, and basically gotten ready to leave 
the country.
    I should make this clear, too: Despite having Edward and 
Hannah here, many of the journalists with whom I spoke in China 
did not want to have their names used and requested anonymity.
    This visa problem is not something new. Officials do not 
offer any information or notion of directive from above when 
they hand down their decision on visas. As one journalist said, 
we are just sitting there waiting in visa purgatory with 
endless phone calls and no confirmation.
    I will move on here quickly.
    Chairman Brown. Can I ask one question about that, Mr. 
Dietz?
    Mr. Dietz. Yes.
    Chairman Brown. Is there any place else you've been, or 
your colleagues have been around the world, where the visa 
process is so sort of precipitous or a similar problem?
    Mr. Dietz. I had a similar problem in 1981 in Somalia. This 
does happen in other countries. It is not played as well as it 
is in China and very often people are left hanging, unable to 
plan, and organizations are unable to plan on the number of 
staff and stabilize the size of the staff they have. I think it 
is less systematic other places. I mean, there's obviously a 
system working here. I think we would all agree in saying that 
this works.
    Chairman Brown. At least it's predictably difficult.
    Mr. Dietz. You know you're going to have this problem at 
the end of the year and with this new addition of having the 
Public Security Bureau involved it's gotten more complex.
    But frankly, all the journalists I've spoken with don't 
know, including the New York Times and Bloomberg, what is going 
to happen. We are seeing that 24 journalists might or might not 
be expelled, but in fact it's might or might not be expelled. 
They're in this visa purgatory, visa limbo, if you will, that 
there's no way to resolve.
    I'm running close on time and I'm going to go to the very 
end of my speech and address an issue which hasn't come up, and 
I think, Senator, you and I might disagree on, but let's see.
    CPJ is glad that Vice President Joseph Biden raised the 
issue of visas and their link to the freedom to report in China 
while he was there earlier this month. Diplomatic engagement 
like that is the best way to address such problems, but CPJ is 
concerned by new calls that if foreign journalists in China are 
not granted visa renewals, that there should be retaliation 
from the United States.
    There was a Washington Post editorial to that effect on 
December 8 entitled ``China's Strong-Arm Tactics Toward U.S. 
Media Merit a Response.'' It is worthwhile to note that the 
Foreign Correspondents Club of China opposes such tactics as 
not appropriate.
    In 2012, last year, we opposed a similar act directed 
against Chinese journalists by the Voice of America, who 
protested that they were only allowed to have two journalists 
stationed in China, while there are many, many Chinese 
journalists in the United States basically working for the same 
sort of state media.
    At the time we said don't punish journalists for these 
official bureaucratic problems. Instead, either deal with them 
diplomatically or deal with it at the level of the bureaucrats 
and not the journalists, not the working people who are on the 
ground.
    I will finish this quickly. I have seven seconds. China 
says that it has allowed 682 journalists to work within its 
borders, and not just those from the United States. That number 
seems realistic, though there is no way to check it. There are 
a growing number of Chinese journalists working around the 
world and not just in the United States as China seeks to 
extend its soft diplomatic power. It would be disastrous if 
democratic countries were to launch a round of modern-era Cold 
War tit-for-tat accreditation wars aimed at restricting the 
access of foreign journalists in foreign countries.
    I checked recently with a Chinese journalist based in the 
United States, who I know fairly well. That person said there 
are no visa problems for Chinese journalists working here, as 
far as that person is aware. Visa applications are handled from 
Beijing, the reporter told me, and other than the face-to-face 
interview with the immigration official, journalists are not 
involved in the process and there are no hassles for Chinese 
journalists in the United States and in other open democracies. 
The journalist feels it should stay that way.
    Chairman Brown. I am not sure I do disagree with you on 
that, so thank you. It sort of begs the question of what role 
the U.S. Government plays in this. From a diplomatic 
perspective, it makes sense: We press China to get visas, but 
we also know that there needs to be a balance between our 
advocating for journalists when the Chinese are obviously going 
to spin it in a way that foreign journalists are somehow an arm 
of the U.S. Government. So that is an issue we need to deal 
with.
    Mr. Dietz. Yes.
    Chairman Brown. I am going to call on Ms. Cook, but I am 
going to have to leave to go preside and Larry will take over. 
So, thank you.
    Ms. Cook, please proceed.
    [The prepared statement of Mr. Dietz appears in the 
appendix.]

STATEMENT OF SARAH COOK, SENIOR RESEARCH ANALYST FOR EAST ASIA, 
                         FREEDOM HOUSE

    Ms. Cook. Thank you. Thank you, Senator.
    In my remarks this afternoon I am going to focus on three 
aspects of the Chinese Government's relationship with 
international media that extend beyond individual journalists 
who are working inside China, specifically: the use of 
collective punishment tactics against news organizations; the 
geographic expansion of some aspects of this phenomenon beyond 
China's borders; and the long-term impact of such pressures.
    In terms of collective punishment--and we have heard a few 
examples of this here--the impact of the obstacles that 
individual journalists face goes far beyond that particular 
person's career or physical safety, affecting the broader 
ability of news organizations to report from China.
    So when American television correspondent Melissa Chan's 
visa renewal was refused, Al Jazeera English has to shutter its 
presence in China because no visa was granted for a 
replacement.
    In other cases, journalists have told the Foreign 
Correspondents Club of China that officials implied that their 
visa delay was due to their predecessor's--rather than to their 
own--reporting, a kind of collective retaliation.
    These examples reflect the broader phenomenon whereby the 
targets of Chinese sanctions expand beyond specifically 
offending content or an individual journalist to collective 
retaliation against an entire outlet, sometimes with notable 
financial implications.
    The Chinese Government's multi-faceted reactions to 
investigative reports by Bloomberg and the New York Times about 
the financial holdings of kin of high-level Chinese officials 
exemplify these dynamics.
    The second point I wanted to raise is that the geographic 
reach of how these dynamics play out are not solely restricted 
to China. In early 2013, several news organizations, including 
the Times, the Wall Street Journal, and the Washington Post, 
publicized that they had been victims of complex cyber attacks 
by Chinese hackers.
    The attacks not only targeted individual China-based 
journalists who are well used to finding malware on their 
computers, but also infiltrated the companies' servers outside 
of China. Though the attacks could not be conclusively traced 
to the Chinese Government, several features lend credibility to 
that assertion.
    In other cases, the connection to the Chinese Government 
actors is much more explicit because Chinese officials and 
diplomats have taken direct action to pressure international 
media executives outside China to take down or refrain from 
publishing a critical report.
    After Bloomberg offered the Chinese Government an 
opportunity to comment on the Xi Jinping story before 
publication, the Chinese Ambassador to the United States met 
personally with the company's editor-in-chief here in 
Washington, DC, alongside other behind-the-scenes pressures.
    These pressures are also not limited to the United States. 
In June 2013, the television station France 24 reported that 
Chinese Embassy officials visited its Paris headquarters and 
demanded that the chief executive remove a brief documentary 
about Tibet from the company's Web site. The Foreign 
Correspondents Club noted similar incidents occurring in London 
and Berlin over reporting by the Financial Times and ARD TV, 
respectively.
    In terms of the long-term impact, hard-hitting reporting 
from China continues to reach newsstands and television screens 
around the world, thanks in no small part to the efforts of 
reporters like Hannah and Edward. But nonetheless, we see the 
Chinese Government's efforts to thwart independent 
investigations taking a toll on international media coverage of 
the country.
    When journalists' sources are intimidated into silence, 
journalists are often forced to abandon potentially newsworthy 
stories, including on health issues like AIDS or deadly 
asbestos, or to invest an inordinate amount of time and money 
in order to complete them.
    Lack of unimpeded access to regions such as Xinjiang and 
Tibet has hindered independent investigations of severe 
crackdowns, forced disappearances, and torture. Blocked access 
has sometimes forced over-reliance on Chinese state media 
reports, whose unverified details can sometimes seep into 
Western news items.
    International media have often defiantly resisted direct 
and indirect pressure to alter their content, despite sometimes 
quite significant potential financial losses, but not always. 
Even well-respected outlets have faced allegations of self-
censorship. The recent reports of apparent decisions by 
Bloomberg executives to curb the publication of stories 
investigating the links between Chinese tycoons and the 
political elite are one such example.
    In 2012, the Washington Post's then ombudsman questioned 
the paper's handling of an interview with Xi Jinping that was 
printed verbatim based on Chinese-dictated questions and 
replies. He noted the Post's difficulties securing visas and 
the receipt of significant income from a Chinese state-run 
advertorial as potential pressure points.
    Separately, a 2009 academic study found that reports about 
the Falun Gong spiritual practice in major Western news outlets 
and wire services were few and far between, despite the ongoing 
scale and severity of abuses suffered by its adherents. The 
author cited self-censorship and CCP [Chinese Communist Party] 
obstructions as two factors contributing to the phenomenon.
    Despite sporadic stories, this trend has largely continued. 
Over the past year, dozens--and more likely hundreds--of Falun 
Gong adherents have been detained and sentenced to prison, in 
some cases for up to 12 years, yet there has been almost no 
coverage in major news outlets of the crackdown, despite its 
implications for how one might interpret other headline-
grabbing developments like reform of the labor camp system.
    The existence of self-censorship is difficult to 
conclusively document, and as I mentioned before there is a lot 
of very good reporting, of course, coming out of China, despite 
the pressures to limit reporting on certain topics.
    But as the former Washington Post ombudsman noted, 
``There's interdependence in the relationship and constant 
negotiation and compromise. The Chinese know it and they take 
advantage of it.''
    As this kind of transnational contestation unfolds, there 
is much at stake. Independent news outlets facing Chinese 
reprisals experience rising costs and loss of advertising 
revenue in an already competitive and financially challenging 
industry.
    News consumers outside of China are deprived of critical 
information for assessing the political stability of a major 
trading partner or responding to health and environmental 
crises. For Chinese people, the stakes are even higher. In the 
age of microblogs and circumvention tools, independent 
international reporting and media outlets offer a vital source 
of information on matters with life-or-death consequences.
    Absent a concerted international response to Chinese 
Government obstructions, the situation is likely to further 
deteriorate as China's international role expands alongside a 
deep sense of insecurity by the Chinese Communist Party at 
home.
    In terms of actions that the U.S. Government might take in 
response, Freedom House, like CPJ, was quite pleased to see 
Vice President Biden raising this issue, both privately and 
publicly during his recent visit to China.
    However, such statements must be backed up with real action 
and some form of sanctions if the Chinese Government does not 
heed those warnings, otherwise there will be a sense that 
they've called our bluff.
    As the U.S. Government explores possible responses, I would 
just raise this point, that this isn't only an issue faced by 
American news organizations in China, so Freedom House would 
really strongly recommend taking a multi-lateral approach and 
consulting with like-minded governments in Europe, Australia, 
and Japan to formulate a united stance.
    Thank you again. Thank you for the opportunity to 
participate in this roundtable.
    Mr. Liu. Thank you, Sarah, and thank you to all the great 
panelists, for sharing very important and timely information 
with us today.
    I would just explain the format of our roundtables. The 
staff of the CECC has some questions that we would like to ask. 
After we are done, we'll open it up to the floor for the 
general public to ask questions. We have two mikes, one on this 
side and one on this side. When the time comes to open the 
floor for questions, we'll just ask you to raise your hand if 
you do have a question and we'll try to get to as many of you 
as possible. I am sure that many of you have a lot of questions 
to ask.
    But first we'll start with some of our questions. I just 
kind of want to get really a free-flowing discussion going. 
There seems to be multiple elements to this issue, one of them 
being a trade issue in terms of blocking Web sites and 
preventing news content from news organizations like the New 
York Times and Bloomberg, preventing that from being accessible 
within China.
    Do any of you have a sense of the scope of the losses in 
revenue and sort of what kind of impact that is having? Are you 
guys measuring that at all? Is there a way to quantify that or 
assess that?
    Mr. Wong. The Times had its Web sites blocked starting in 
October 2012. We had opened the Chinese-language Web site with 
the intent of generating revenue from advertising that would be 
aimed at the Chinese-language market. I haven't done any 
independent research into this.
    I know that our public editor there, Margaret Sullivan, had 
published a column last Sunday that said she believes the Web 
site had lost around 3 million, a potential of 3 million since 
the blocking began. But those are her numbers. I don't have any 
numbers directly from the company.
    Ms. Beech. TIME's Web site was blocked for several years 
but it was before the growth of social media, and I think the 
dependence that a lot of Chinese have on foreign news. I think 
every story that Edward and I write is somehow translated, 
sometimes incorrectly, into Chinese and it is disseminated on 
Weibo and other Chinese social media sites.
    So I think there is a trade issue but there is also the 
impact that foreign journalists can have on the Chinese 
understanding their country better simply because Chinese 
journalists are under such onerous censorship conditions.
    I think a lot of the stories that we get as Chinese 
journalists are those from tips from Chinese journalists who 
can't publish something on their own. Then they will come to us 
and say, ``Hey, why don't you look into this? '' It's a 
testament to their journalists' professionalism that we are 
able to do some of the things that we do.
    So I think that, yes, there is an economic component but 
there is also a social and political component that I think is 
very important for the Chinese people themselves.
    Mr. Dietz. I won't get into the finances of it. Frankly, 
that's the other side of the street that I work. But in terms 
of impact, the foreign journalists' impact in China, I think 
the New York Times articles and some of the earlier Bloomberg 
work was really an indicator of how threatening that is to the 
government.
    In China there's most likely scores of tens of thousands of 
demonstrations every year at a village or township level, and 
most of those are protesting some sort of abuse, corruption, or 
a combination of the two.
    The general Chinese population is accustomed to seeing and 
dealing with this corruption at a local level, but when you do 
the sort of work that the New York Times has done, showing that 
Party leaders and the central government is also tinged or 
tainted by corruption, you begin to really threaten and 
undermine the power of the Party.
    I don't want to make too much of this, but I think people 
tend to feel that their central government is somehow better 
than what they are seeing at the local level or at least 
they're putting their faith in the Party to somehow be better 
than that. Undercutting that faith in the central government is 
what will bring down the hammer on your head in China.
    Hannah, Edward, you can most likely tell these stories 
better than I, but when you're reporting at a local level 
you'll very often run into a bunch of thugs or cops or local 
Party officials with a gang who's going to shove you around, 
take your film, harass you, get the local police to rough you 
up or something like that.
    That is part of the deal of reporting in China, and you are 
allowed to report on that in China. You pretty much can go to a 
village like that and report on that sort of abuse. But what is 
dangerous is to take on the central government and that central 
authority. And when that appears in a Western paper you think 
it's limited to Western media. But in fact that sort of 
information, almost by osmosis, enters into the social media 
platforms that are operating through China. The social media 
platforms are maybe the biggest engines of change in China 
right now.
    Ms. Cook. I would just second Bob's point in terms of, the 
Party's propaganda narratives. They focus very much on this 
idea that you can trust the center, but then put blame on the 
local officials. So, it is really how stories about top 
leaders' family undermine that particular narrative, which 
makes them so sensitive.
    Regarding the financial implications, as I was doing the 
research on this report, we did actually look up the stock 
prices, the value for the New York Times on the day that the 
Web site was blocked, both the English and Chinese edition.
    There was a pretty dramatic drop in the value of the stocks 
that day, so it seemed like some investors, at least, felt like 
the idea of having a Chinese-language Web site that would be 
able to reach Chinese audiences maybe wasn't going to be 
happening now.
    The stocks seemed to climb back in value over the following 
months, but I think it can give an example of how certain 
investors may almost inadvertently punish a news organization 
financially for doing good reporting because now it seems like 
certain elements of their business model are not going to be 
working.
    I think that would be the other thing I would say, and 
besides Western news outlets, it is even more the case for 
Chinese-language news outlets which attempt to be independent. 
The Chinese Government's obstructions make it very difficult to 
follow a traditional business model as in a normal setting in 
terms of media sustainability where you are relying on 
advertising. There is this whole level of unpredictability, you 
do not know who your audience is or will be in the future.
    Actually, it is when you're becoming effective and reaching 
large audiences, that you are most likely to be obstructed. So 
you end up with these kind of, more in the Chinese language, 
these very strange and counter-intuitive situations where 
sometimes the less popular media outlets that are closer to the 
Chinese Government may get more advertising and revenue than 
some other more open media outlets or aggressive media outlets 
because advertisers are afraid of advertising with the latter.
    So it is not just a trade issue, I think, it is also this 
issue of trying to tweak the economic incentives under which 
media entities operate. The other, I would say, is the long-
term implications. So for Bloomberg--actually, the number of 
terminals that Bloomberg has in China isn't that many relative 
to other parts of the world, but clearly there's a lot of 
potential to grow.
    So the fact that this part of their business, which is 
actually how they gain revenue much more so than via their Web 
site. They don't have Chinese-language Web sites, only an 
English-language Web site, and how many people really read that 
in China?
    I think that is where the pressure can come, where you have 
this business plan of expansion and all of a sudden that gets 
cut short because of a certain kind of reporting, and that is 
where the Chinese Government is very good at manipulating the 
leverage they hold.
    Mr. Liu. I wanted to go back to Edward and Hannah. Do you 
have a sense of maybe, in your interactions with Chinese 
officials, both before and after President Xi Jinping took 
office, any shifts and sort of what might be driving some of 
the actions or some of the delays that we are witnessing now? 
Was it the articles that could be probably one of the main sort 
of turning points, or are there other external factors at play?
    Mr. Wong. I think that in this case--I mean, there's been a 
lot of analysis of the ideological character of the leadership 
since Xi Jinping took power and the other six members of the 
Standing Committee took power last November. But in our 
conversations and in the conversations that the Times has had 
with Chinese officials repeatedly since last October when the 
first story on the finances of the Prime Minister's family was 
published, they repeatedly said that writing these kinds of 
stories, stories about the leadership, its financial ties and 
its assets, will not be tolerated in China.
    I know that Bloomberg News, which had done the same type of 
reporting, has had the same types of conversations with Chinese 
officials. So at least in the way they've expressed it to us, 
it's very article-focused, it's focused on this type of 
reporting.
    But as you know, these types of articles are a very narrow 
strand of reporting that we can just put aside or that anyone 
would want to put aside. Like, these articles get to the heart 
of the nexus between the Party and the economy, and I think 
Bob, in his explanation, characterized their impact very 
succinctly. In the conversations we've had they've definitely 
pinned the obstacles that we're facing on the fact that we 
publish these articles.
    Ms. Beech. Just to add to that, I think that the two 
previous cases, one of Melissa Chan of Al Jezeera and Paul 
Mooney of Reuters, are of a slightly different ilk because 
clearly, although we have never been given an explanation as to 
why they didn't get their visas, but we presume it is because 
of relatively hard-hitting human rights reporting and not about 
reporting about high-level officials, which is the types of 
things that the New York Times and Bloomberg have been focusing 
on, as Edward said.
    I think the other issue is a solution-based issue, which 
is, from the foreign community's perspective, what carrots and 
sticks do we have to be able to convince the Chinese Government 
that they should accord the kinds of rights to both Chinese 
citizens, and to a lesser extent to foreign journalists, that 
the Constitution of China presents to them as being part of 
their life in China.
    You look at--China is the second-largest economy in the 
world. It has acceded to the WTO. It successfully hosted the 
Beijing Olympics. There are a lot of things, a lot of 
situations in which there could have been pressure that could 
be borne on the Chinese Government, and those types of issues 
in which there can be some sort of negotiation to try to better 
the human rights situation are fewer and fewer. So, I don't 
know what the answer is. There's obviously this issue of 
reciprocity, which has foes and adherents as well.
    But I think it is increasingly difficult to think of a way 
in which the foreign community can convince the Chinese 
Government that the way that they're treating both foreign 
journalists and Chinese media, and with this crackdown on 
dissidents, scholars, and other people who speak out is not 
necessarily the best thing for the country.
    Mr. Dietz. Just to develop that a little bit, I think what 
we're seeing now in China is a crackdown, a change in 
philosophy, governmental philosophy, and a hardening of the 
attitude toward media in China. But over the years, these 
things have always been cyclical. There have always been more 
open periods, closed periods, open periods, and you can really 
see them come and go over the years.
    Before the Xi government came into place, if you were to 
speak to Chinese journalists--we must not have a simplified 
image of Chinese journalists who are a bunch of Party hacks, 
repressed Party hacks who dare not stray out of the Party line. 
If you were to have spoken to many Chinese journalists prior to 
the arrival of the Xi government, you would have found that 
they felt they were in something they were calling a Golden 
Age. While there were plenty of restrictions and plenty of 
guidelines and a steady stream of directives from the Central 
Propaganda Department they felt that, more than any time in the 
past, they could go out and pursue stories, stay ahead of the 
curve of the propaganda directives coming down, and play a role 
in Chinese society that they had not been able to play in the 
decades before.
    There were earlier periods, too, in which that happened as 
well. But I think what we're seeing now is something going 
downhill. I don't know if we've hit the bottom and I am afraid 
how far downhill it will go. But it doesn't mean right now that 
this is the end of freedom of journalism, freedom of speech or 
journalism in China.
    I think what this is at this point is a new government 
asserting its authority, trying to gain control of an 
increasingly, for them, unruly media world, driven by domestic 
media, driven by foreign media, but even more so driven by 
social media, which just keeps bubbling up from the bottom. It 
is the source of information for Chinese journalists who are 
covering stories who say, ``We didn't know this was happening, 
let's cover it.''
    Is it going to be like this all the time in China? In the 
past we have seen that these restrictive periods do not always 
last. Right now there does really appear to be a crackdown and 
a real intent to suppress not just dissent, but even discussion 
to some extent in China.
    Mr. Liu. Thank you.
    I will turn it over to our Deputy Staff Director, who works 
for Congressman Chris Smith, Paul Protic. I think he has a 
question he would like to ask you.
    Mr. Protic. Thank you, Mr. Liu, and thank you to our 
distinguished panelists.
    Can you further describe your dealings with Chinese 
officials? Have they told you not to cover certain stories 
specifically?
    Mr. Wong. At the Times, we have met with Chinese officials 
at various levels. Our publisher, Arthur Salzberger, has met 
with them. Reporters in the bureau have met with them in 
different meetings and they have admonished us at varying times 
for different kinds of stories. In the current round of 
difficulties we're facing, as I said, they've talked and 
they've focused on stories about the leadership and finances of 
the leadership's families.
    In the past, they have lectured us on other types of 
coverage, for example, coverage of Tibet issues, coverage of 
protests, certain types of protests in China such as during the 
Jasmine Revolution period where there was no real Jasmine 
Revolution, but there were calls for protests on the Internet 
and the Western news media covered it widely. Many Western 
reporters, including ones from our bureau, were called in to be 
lectured by various Chinese officials.
    So in the last year, the lecture has been focused on these 
stories focused on personal finances. I have seen reports 
recently, including by Evan Osnos of the New Yorker, that 
diplomats for China have told other reporters like Evan that 
they believe the Times and Bloomberg are out to overthrow the 
Party.
    They have also said, for example, that the Times is trying 
to act like the Central Discipline Inspection Committee of 
China, which is sort of the Party's internal corruption 
investigation agency. So obviously even in those conversations 
they're focused on the stories that we're doing about the 
leadership, and those are conversations they're having with 
other reporters, not with us.
    Ms. Beech. I think one of the basic misconceptions that 
exists between the Foreign Ministry officials that I've met 
with is that there is still, as one of you mentioned, an 
assumption that we somehow work for the Chinese Government and 
that we reflect some sort of directive from Washington, which 
as most of you know is definitely not the case.
    So that informs the discussion, so you spend the first part 
of the discussion saying, ``Well, actually, we don't work for 
the U.S. Government, we work for media organizations that are 
independent.'' There are certain no-go issues. In the 
conversations that I've had and the lectures that I've been 
brought in to listen to at the Foreign Ministry, things like 
Edward said, Tibet, Xinjiang, these autonomous regions that are 
considered ethnically sensitive and ones that are very 
complicated. I've done very little on the wealth accrued by 
major Communist Party families, so that's his bailiwick.
    But I will say that there are, as I said, no-go areas where 
you just do not go, anything Tibet. I've gotten called in 
probably three or four times to talk about Tibetan issues. I 
have one slight disagreement in terms of the central and local 
government dichotomy.
    When I was based in Shanghai it was during SARS. For some 
magical reason, a lot of places around Shanghai had suspected, 
or even confirmed, SARS cases and Shanghai kept on saying that 
there weren't any. There were suspected cases but there were 
not actually cases. I did some reporting and actually found 
some cases of SARS in Shanghai.
    The local government, much more than the central 
government, was very upset because this made Shanghai, the 
commercial center of China, look very bad. I was actually sued 
for libel in a court, I believe in Washington State, and this 
court case went on and on and I actually was not very involved 
in the resolution of it.
    But in addition, I got called in to the Foreign Ministry in 
Shanghai many times. The Shanghai Foreign Ministry officials 
found out that I had not gone to journalism school and they 
thought that it would be correct for them to bring in a Chinese 
journalism professor to lecture me on journalistic ethics.
    So I sat there for many hours and we went through, this is 
the inverted pyramid and this is what you're supposed to do as 
a foreign journalist. You just nod and take it because you want 
to be able to cover China, and I wasn't getting beaten up, I 
wasn't going through the kinds of things that foreign 
journalists in Russia go through, which is to get assassinated. 
So, it seemed a small price to pay to learn about journalism 
from a Chinese professor.
    Ms. Cook. I would just second, I think, the point that 
Hannah raised earlier about the cases of Paul, and also Melissa 
Chan, where it did seem as much about the journalists 
themselves, or in Melissa Chan's case it wasn't clear if it was 
even about a report that her colleagues in the United States 
had done about labor camps.
    But I think with Paul, it sounded like, from what I heard 
from him in terms of some of his conversations with Chinese 
officials, that there were in some cases specific stories that 
they presented to him and hoped that he would be more objective 
in the future.
    But I think it is one of those issues where you just have 
somebody who really understands China, has contacts in the 
activist community and has proven that he is able to dig up 
certain stories that might not otherwise see the light of day.
    I think that they are quite worried about somebody like 
that, especially in the age of microblogs, like Bob had 
mentioned, where so much of this information is able to circle 
back into China, which is different from, say, 10 years ago.
    Mr. Liu. Thank you. Jesse Heatley of our staff, I think, 
has a question for you guys.
    Mr. Heatley. Sure. I'd like to thank the panelists today. I 
have a quick question. Bob had mentioned that the lapse of 
visas or the failure to renew visas might go through, but it 
might not. If the visas are not renewed, what does that mean 
for the New York Times and Bloomberg? Can the New York Times or 
Bloomberg cover China from outside China? How will the coverage 
change, and what are the prospects?
    Mr. Wong. I don't think we would have a choice other than 
to keep covering China from outside. I mean, Chris Buckley is 
one example. His visa for Reuters expired and the government 
did not grant him one for the Times last year, so then he's 
been writing about China, and especially about Chinese 
politics, from Hong Kong for us. We all think that obviously 
his reports would be more robust if he were in Beijing. He's 
done a very good job from Hong Kong because he's such an 
experienced China watcher, and such an experienced journalist 
reporting on these issues.
    But I think that we would have less access to sources, we 
would have less sense of what's going on on the ground. Our 
stories would lack sort of the voices of ordinary Chinese, as 
well as people from the elite classes. I think that we would 
lose a sense of the nuances of what's going on in China, the 
entire spectrum of issues.
    I'm not just talking about the sort of stories that would 
be investigative or hard-hitting in nature, but also the sort 
of stories about lifestyle or about culture. These stories are 
just as important to our coverage of China, I think. The 
public, I think, would get a more monochromatic view of China 
if we were writing about China from outside.
    Ms. Beech. I can't obviously speak on the New York Times 
case. A friend of ours who is an American journalist based in 
China was joking that we should all open news bureaus in Taipei 
and see how that works as a listening post. I think Hong Kong 
has gone back to being a listening post for China, which is on 
the one hand--there are a lot of interesting people who come 
through Hong Kong, but that is, again as Edward said, not an 
ideal situation.
    I think part of the issue is that it is very difficult as 
foreign journalists in China to talk to Chinese officials. You 
rarely get called in unless you've done something wrong and you 
get a lecture. The irony is that personal relationships matter 
in any society and they matter a lot in China, and I think 
humanizing Chinese officials, getting to know them, getting to 
know what makes them tick, how they started with the hard-
scrabble lifestyle and they've risen to great heights, I mean, 
that kind of access would make them into humanized people that 
we could really write about in a much more well-balanced way.
    This kind of faceless Chinese leadership, the fact that 
Edward, I, and others are spending all this time trying to find 
out the tiniest details to illuminate who these people are, 
that is not helpful for trying to create a well-rounded, 
sophisticated understanding of China. I would say that if 
there's any lesson that the Foreign Ministry might want to take 
from this experience is that honey works.
    Mr. Liu. Thank you.
    Do we have any more questions? Okay. I think we'll open it 
to the floor now for those who have questions. Please limit 
yourself to one question. This is on the record, so if you 
don't want to identify yourself you do not have to. Again, 
please just limit yourself to one question and raise your hand 
if you have a question and we'll bring a mike over to you.
    Okay. Sure. The gentleman over here in the front.
    Mr. Nelson. My name is Mark Nelson. I'm from the Center for 
International Media Assistance [CIMA] here in DC. I'm just 
wondering to what extent this issue is being covered in the 
Chinese media and how much awareness there is of this in China, 
and to what extent it's a reflection of the state of media 
development in China itself. Would a stronger and more open 
media, Chinese media, help resolve issues like this in the 
country?
    Mr. Liu. Does anyone want to take that?
    Mr. Wong. I haven't seen much coverage of this in the 
Chinese media. There's been a lot of coverage in the last week, 
for example, of this issue following Vice President Biden's 
trip to China, but I haven't seen this issue brought up in any 
of the Chinese coverage of that trip. So I think that it's not 
an issue that they talk about a lot.
    I saw today or yesterday that on Asia Society's ChinaFile 
Web site there was a senior reporter/editor for China Daily 
U.S. who spoke out about this issue, and his viewpoint was that 
he was saying that the United States should not engage in visa 
reciprocity because two wrongs don't make a right, which is 
interesting because it implies that he believes that this visa 
delay or denial is a wrong.
    So I am hoping that he'll communicate his viewpoints and 
also the conversations that are going on in Washington to his 
superiors in Beijing, but other than that I haven't seen any 
Chinese journalists write about this or speak out about this.
    Mr. Liu. Okay. Yes, go ahead.
    Ms. Cook. I think in some of the Hong Kong papers you've 
seen discussion. I think Chang Ping maybe wrote about it. He is 
a Chinese journalist who is now in Germany, probably because he 
had trouble getting a visa to work in Hong Kong, actually.
    I think he wrote it in Chinese and then it was translated 
into English, but I haven't seen much in the Chinese-language 
media. I would just acknowledge that the report that much of my 
testimony had come from was written for CIMA, so they have a 
lot to do with the knowledge that I was able to share with all 
of you today.
    Mr. Liu. Great. Thank you. Hi. Yes, over here.
    Ms. Liu. My name is Diamond Liu. There is a famous saying 
that, ``Democracy is only one generation from being wiped 
out.'' Democracy is more fragile than we take it to be. What is 
happening to you now, I can say with some historical 
perspective, is what was happening in China in the 1940s. They 
were unable to stand up and they lost everything.
    Now, there is one thing I think that democratic leaders do 
not understand. For a place to remain democratic, they need a 
free press, a vigorous free press. I thank the committee for 
organizing this hearing. But I do fault our democratic leader 
for not standing up strongly enough, defending free journalism. 
And I agree with Sarah completely that we need a multilateral 
response, a moldable response, not just one response. It has to 
be vigorous.
    Now, I would like to ask a question now. On December 8, the 
human rights date, there was a mass suicide on Tiananmen Square 
which was reported in the social media in China. I do not know 
if any of you are aware of that incident. I was not able to 
find any other coverage.
    From what I could gather, these petitioners who are not 
sophisticated have no connection to foreign media. When I sent 
a photograph of the people slumped on the ground on Tiananmen 
to some friends in Beijing, some journalist friends, they 
received my email with no content. So they are very efficient 
in censoring even email. I wonder if any of you have heard of 
this or have seen any coverage of this. Thank you.
    Ms. Beech. I must admit that I was on the airplane and 
coming to the United States on December 8, so I am probably not 
the right person to talk to. But I would say that it is a truth 
among journalists that we talk to cabbies and get their view of 
what's going on in the country, but I would be hard pressed to 
find a Beijing taxi driver who does not know about the New York 
Times series on the financial allegations that the Times has 
made against top leaders or their families within China.
    So I think a lot more information does trickle down despite 
the fact that Weibo, the Chinese equivalent of Twitter, is 
constantly blocked and shepherded by state censors. There's 
still enough out there and there's an appetite among the 
Chinese for this information that I think is helping to drive 
the foreign press and Chinese press.
    One of the things that happens with the Chinese press is 
oftentimes--let's say you're based in southern China and you 
can't write about something that's happening in southern China, 
but you can send a tip to your friend in northern China who 
isn't bound by the same local officials and say, ``Hey, why 
don't you write a story about what's going on? ''
    So there are ways around it and information travels much 
more freely than it used to. I think we've reached the point, 
whether you want to call it the middle-income trap or this idea 
where political reform--I think among even people who have made 
a lot of money in China, that they want political reform, at 
least legal reform, to be able to protect the money that they 
have made.
    I think that that impulse will cause them to push for more 
freedom of information. Does that mean that they want foreign 
journalists to be running around the country? Maybe no, but it 
does mean that access to information, whether it's business 
news, even human rights news, matters, is seen as mattering 
more to their future livelihoods because they've reached a 
level of economic success and you want the next step, which is 
more information.
    Mr. Wong. I would say, just to add to that and to make a 
point that sort of underscores the various ways in which the 
foreign media seems important within China, not just by readers 
outside of China, is that Hannah talked about, for example, an 
example where a Chinese journalist who can't report on a 
subject might give a tip to a foreign journalist. But there are 
also examples of, once a foreign organization reports a lot on 
certain topics, then that opens up the path for conversation 
for that topic within the Chinese media.
    So one example we noticed was that of air pollution, that 
this is something that the foreign media had been reporting on 
for the last couple of years. It's a fairly obvious issue for 
anyone living in China. The U.S. Embassy also has been trying 
to widen public discourse about this because they were 
concerned that probably their own employees were suffering the 
effects of the air.
    But in any case, the foreign media had been reporting on 
it, and then because of a particularly bad bout of air 
pollution last January, then due to the widespread coverage in 
foreign media and to other pressures coming from within China, 
the state media started writing front-page stories about this 
issue.
    I think that there's a dialectic going on between the 
foreign media and the state media, and it's not black and 
white. We're not seen as enemies and oftentimes Chinese 
journalists want to be able to have cover for writing their own 
stories about topics and we help provide part of that 
conversation piece.
    I think that's important and I think for ordinary Chinese 
and also for Chinese officials, there are many officials in 
various agencies that want to see these reports being put out 
there by the foreign media and by the state media. I think 
they're grateful that the Times is there, that TIME Magazine is 
there and that others are there, and we are hopeful that they 
can engage in a dialogue with whatever officials are in charge 
of the visa process.
    Mr. Dietz. Just to develop that thought a little bit more, 
I think what we're seeing in China is that the media crackdown 
is not working, frankly, that this is a government racing to 
try to stay at the head of the parade and in doing so tripping 
and stumbling a lot.
    This air pollution issue, which was really the most obvious 
thing to everyone who had been in China, has been around for a 
terribly long time but now is just current and currently 
discussed in media.
    I say the crackdown is not working, but what I'm worried 
about is that because of this drive of social media that the 
government is going to crack down harder, it's going to try 
more and more to stay at the head of this very fast-moving 
digitally powered parade.
    You're seeing an increasing demand from consumers, not just 
wealthy business people who want to protect their billions but 
just normal middle class--and there's a tremendously emerging, 
rapidly emerging middle class in China--media consumers who are 
expecting better and better media coverage of the world in 
which they live, and they're really demanding it. Chinese 
media, when they can, try and meet that demand.
    Even when journalists have run afoul of the government, 
it's gotten to a point now where people are not being thrown 
off in jail or sent off. Offenders might be demoted, but 
there's a series of warnings and levels of warnings that 
editors ``get.'' Editors are savvy enough to know how far they 
can go on stories, but they also know that they're getting a 
demand for better reporting from the readership. And there's 
also a commercial demand.
    Other than several flagship newspapers and CCTV, most media 
in China operate pretty much the way Western media do, having 
to rely on sources of income through advertising or readership. 
The government is looking at this and they are caught in a 
terrible quandary of, how are we going to control this, meet 
the demand, modernize this nation, satisfy an emerging middle 
class?
    So much of the middle class now travels outside of China, 
they go to Europe, the United Sates. They travel around and 
they see what the rest of the world is doing and they want more 
of that. It is that demand, the social media, which are just--
I've said it so many times already today, but it's just driving 
from underneath the expectations of the Chinese people, that 
the government, I'm afraid, is going to mistakenly try and 
crack down harder.
    We've said that this is very much an open situation with 
these 24 or so visas, and who knows which way it will go. I 
have a secret fear in the back of my head, and I've been told 
to make no predictions here, but there's a great concern that 
there will be this ham-fisted response from the government of 
saying we're going to show these people once and for all they 
can't do this in our country and really come down much more 
heavily than necessary or is appropriate on these news 
organizations, hoping to intimidate the rest of the foreign 
media in China.
    Hannah's article, ``Foreign Correspondents in China Do Not 
Censor Themselves To Get Visas'' is a must read. It is your 
lead article on your blog, right Hannah? Foreign journalists 
don't. But foreign journalists will tell you that they are 
under pressure. They're aware of this visa pressure, but I'm 
just not aware of anyone who's trimmed back coverage--and of 
course I know the accusations being made against Bloomberg.
    I think that I'm worried that this government is going to 
get harder and stupider before it gets smarter and realizes 
it's not going to be able to win this battle, not just against 
foreign media but against Chinese media as well.
    Ms. Cook. Looking back on the events of the last few 
months, especially in terms of social media, I think the 
landscape has actually become much more pessimistic than it 
was. We've really seen a crackdown.
    To go back to the air pollution example, some of the ``Big 
V'' users who were very instrumental in promoting discussion 
specifically related to PM<INF>2.5</INF> have been among those 
on the receiving end of the social media crackdown that has 
been unfolding since the spring.
    What's been interesting, in this case, is that in many ways 
it's been a much more sophisticated form of crackdown than 
previous ones. The authorities have used various approaches, 
including setting examples with televised confessions and 
issuing judicial guidelines that would impose very high prison 
sentences for people who write something that gets re-Tweeted 
500 times or clicked on 5,000 times.
    We don't know of any cases where anybody has actually been 
sentenced to prison on such charges, but from the conversations 
we've had with people, including people who follow Chinese 
social media more closely than I do, it's really had a chilling 
effect.
    There is a kind of social engineering sophistication to how 
the authorities are approaching the crackdown to encourage 
people to self censor so that they do not actually have to come 
down so hard from a technical or prosecutorial standpoint. With 
this visa issue you also see these kinds of murky incentives--
carrots and sticks that are used to try to encourage self-
censorship. I think the challenge often is not so much the 
level of the journalist, but manifests in some cases as debates 
happening internally at higher levels of media organizations. 
And these are very tough decisions.
    I mean, it's easy to look from the outside. These are very 
tough decisions for media organizations, especially in the 
current financial situation many media face. There is the sales 
department, the editorial team, and you have clashes among 
these different actors, with senior executives having to make 
very tough decisions about coverage in some cases.
    The Chinese Government is very good at pressing these 
buttons to make decisions, that in many other media 
environments would be no-brainers, much more of an issue and 
kind of raising the bar to whether certain newsworthy stories 
are covered or not. So I would say that with regard to foreign 
media, we are also seeing a higher level of sophistication in 
the ways in which the authorities are trying to manage and get 
a grip on a news environment that they're having much more 
difficulty controlling.
    Unfortunately, from a number of the people that I've spoken 
to, there is a sense that some of the stories--whether it was 
the air pollution, the labor camps, or other issues that came 
up last year and really pushed real changes on the part of the 
government--that you wouldn't be able to see those dynamics 
happening now after the chilling effect that has happened in 
social media. But, hopefully we will be pleasantly surprised in 
the coming months and will see more of these kinds of stories 
popping up again.
    Mr. Liu. Okay. Let's try to get a few more questions in. 
Yes, the gentleman in the back there.
    Mr. Fay. Hi, my name is Greg Fay. I'm with the Uyghur Human 
Rights Project. Hannah, you mentioned a few times that you've 
been called in by officials to talk about your reporting on 
Tibet, and I'm just curious how that has affected your 
reporting on Tibet and how you think that official pressure has 
affected reporting about Uyghur issues as well.
    Last year the Committee to Protect Journalists published a 
statistic that over half of all journalists detained in China 
were Tibetans or Uyghurs, so I'm also wondering, how do you 
deal with the safety of your colleagues and also of your 
Tibetan and Uyghur sources? Thank you.
    Ms. Beech. This is from a personal perspective. I'm 
relatively pig-headed. If somebody tells me not to do 
something, I have a compulsion to want to do it. So I don't 
feel like it has made me moderate my coverage of ethnic issues, 
particularly with Tibet and Xinjiang.
    I think you bring up a very good point in terms of Chinese 
sources and Chinese assistance, because the worst thing that 
will happen to somebody like Edward and me is that we get 
kicked out of China, which is a shame because we spent all this 
time committed to trying to understand the place. Our Chinese 
sources, our Chinese fixers, our Chinese staff are under much 
more greater pressure and they are the ones who get sent to 
jail, who get beaten up, who get intimidated on a regular 
basis.
    So the balance that I think that we have to strike is not 
so much--for me as a journalist who doesn't have to worry as 
much about the business side of my company is to ensure the 
safety of those people. So whether that means using different 
names for people, obscuring some of the details, making sure 
that you go places in a way where you don't attract attention, 
those are all things that you really have to plan much more 
than you would if you were going to an area that was more Han-
dominated.
    But I think Xinjiang and Tibet, and to a lesser extent the 
Inner Mongolia issue, those are really tough issues. I think in 
the coming months and years, especially after there is new 
leadership within ethnic communities, that this is going to 
become an even greater issue that we will have to cover.
    Ms. Cook. I think with the Uyghur issue, I don't remember 
if it was Edward who wrote this story or not for the Times, but 
this example highlights some of the reasons why the Chinese 
Government is so afraid of allowing foreign journalists into 
Xinjiang.
    Back in 2008, there was some form of a clash supposedly 
between Uyghur assailants and Chinese military. The Chinese 
media and the press were kind of playing this up as an attack, 
an example of militant Islamic separatism or something.
    Then a few months later, or a year later, there was an 
article, I think, in the Times about there had been some 
Western tourists there who had actually seen the incident 
happen. They were saying it was all very strange because it was 
actually uniformed policemen or military men using machetes 
against other uniformed military men. It is, I think, a really 
important article to highlight. It happened to be that you had 
these other witnesses who were there that could lend real 
weight to questions about the credibility of an assertion and a 
spin that the Chinese state media had put on the event. That 
spin had reinforced official narratives that are then used to 
suppress Uyghurs and gain cooperation from other governments 
that there are these supposed Uyghur terrorists.
    I think that just highlights the importance of when 
journalists are able to get into Tibet or into Xinjiang, the 
kind of eyewitnesses they can be, the way they can be the eyes 
and ears on the ground for the world and can question these 
state-run narratives. This is really important. I think that is 
also why the Chinese Government is so restrictive about whether 
they allow them in or not.
    Mr. Stein. Thank you. Todd Stein with the International 
Campaign for Tibet. To follow up on that question, Ms. Beech, 
you mentioned the no-go on those issues. To what extent--on the 
writing on those issues. To what extent are those no-go areas? 
What is your freedom to travel within the country, what 
restrictions do you face? That 2008 Olympic promise on 
journalist access throughout the country, to what extent is 
that honored or is it just ditched?
    Has there been any change in levels of freedom to travel in 
recent months as this issue we're talking about has sort of 
accelerated?
    Ms. Beech. I think one of the issues with rules and 
regulations in China is that they are not always enforced, and 
they are enforced subjectively and they grow in certain ways. 
So when there was a supposed Jasmine Revolution following the 
Arab Spring in China, which really turned out to be nothing, we 
were essentially told as foreign correspondents in Beijing that 
we could not visit an area which is one of the main shopping 
districts in Beijing.
    So we were allowed to report anywhere in China except for 
this place. I mean, the rules shift. In terms of going into 
Tibetan regions in Western Sichuan, Qinghai, and obviously the 
Tibet Autonomous Region, there are often roadblocks. Even if 
you get through the roadblocks, you don't sort of want to go 
into the tradecraft, but there are ways in which you try to 
evade the roadblocks. Several journalists have been able to get 
in and they have been able to--even though oftentimes the roads 
are lined with security forces.
    It is not an ideal reporting condition, so you get in there 
really quickly and then you get out of there really quickly. So 
does this provide nuanced, objective reporting? No, but it's 
sort of the best that we can do. At least in the case of the 
Tibetan community, and to a lesser extent with the Uyghur 
community, there are a lot of people in Dharamsala and within 
the exiled Tibetan community who try to disseminate 
information.
    Now, obviously you have to take that with a grain of salt 
because they are advocates and they are trying to advocate a 
certain perspective on the situation in Tibet, so you're 
constantly trying to balance, is this an extremist activist, is 
this a normal counter-narrative to Beijing's side of things? 
It's a lot of factors that you're having to put together into a 
story that you hope is as objective as possible, but it's 
tough.
    Mr. Liu. Okay. One more question.
    Participant. I have one question for the panel. Before 
that, I have some thoughts to share. If we know in terms of a 
military power the United States is much stronger than China, 
but if we don't take this media issue seriously I'm afraid that 
we're already losing to China before a war is waged because the 
Chinese regime knows how important this media is. The 
information that people get determines how they think. How they 
think determines how they act.
    Now, if we look at the four entities here, the Chinese 
regime, Chinese people, the American Government, and Americans 
and see what they do to each other, the Chinese regime controls 
all the media, domestic media, so that the Chinese people do 
not get accurate information. Also, they block the free 
reporting by the foreign journalists so that American people do 
not get accurate information.
    At the same time, they have all the media in this country, 
propaganda media, China Daily, in their news racks throughout 
Washington, DC, and also their TV channels are on cable in all 
the metro areas. So my question is, what would the panelists 
suggest the U.S. Government do to change this imbalance?
    Mr. Wong. The New York Times does not have a position on 
any policies under consideration, and I personally don't have 
any position to offer myself, either.
    Ms. Beech. I would second that. I'm not a politician. I'm 
not in the U.S. Government. I don't really have an ability to 
be able to recommend a particular policy. I mean, I would say 
that despite the fact that there is blocking on either side, 
that information does get out. It does get out through Weibo, 
it does get out through Weixin, and that taxi driver example 
that I mentioned before shows that even people who might not 
have much invested in these issues know what's going on, and 
even though there is constant censorship of key search words on 
Weibo, that there is an interplay of information.
    Now, the question with Weibo, and it's a good one, is like 
any Internet, online forum, does it represent two extreme 
views? If you've got sort of a crazy from the right and a crazy 
from the left, how do you collate those and get a more 
objective perspective on what the Chinese people are thinking 
for 1.3 billion people. Of course, it's impossible. I think, as 
foreign journalists, we sometimes over-emphasize that as a 
barometer of how we measure Chinese opinion, and that is partly 
because there are not that many other avenues to do so.
    Mr. Dietz. I'm not at all convinced that China is winning 
the propaganda war. I don't think it's winning the war at home. 
I think, as I've said several times before today, I think it's 
rushing to stay ahead of the demand for information from an 
increasingly savvy public.
    One thing I noticed China doing in countries other than 
Western countries is expanding its soft power and really 
replicating what the United States has been doing for many 
years of using international radio broadcasts, television 
stations, influencing African media or media in other 
developing regions.
    We see Chinese influence in Hong Kong where the media is 
becoming increasingly centralized and very discreetly but very 
obviously beholden to political power in Beijing, and frankly 
we see the same thing happening more on a commercial basis in 
Taiwan. But I don't see right now China winning a propaganda 
war, U.S. versus China. I'm not convinced that that's working 
at all.
    I think even if Bloomberg, AP, New York Times, and the 
Washington Post were kicked out of Beijing, that that would 
mean China would win a war like that. Actually, I should really 
pull that back right away. I don't think it's a war, I think 
it's a conflict. I'm not moderating that in some way to 
diminish it, but it's not a battle going on, it's something 
much more subtle. I just don't think that China is winning 
that. I don't think they're winning it at home and I don't 
think they're really winning it in the developed countries.
    What I do look at is in developing countries where I think 
they're more subtle and have a greater control over media which 
might be less experienced or sophisticated.
    Mr. Liu. Okay. Thank you.
    I wanted to give the panel--oh. Sorry, go ahead.
    Ms. Cook. Is it okay if I respond to that question real 
quick?
    Mr. Liu. Yes. Sure.
    Ms. Cook. I guess I would just say that I think on this 
question of the reciprocity of whether we don't provide visas 
to, say, Chinese state-run media who come to the United States, 
I think that's wrapped up with lots of different challenges, 
including the fact that those journalists aren't the ones 
making these decisions.
    I would be more in favor of having any kind of 
reciprocation be targeted at officials, Chinese officials. Say, 
perhaps it could be diplomatic credentials that may be delayed, 
a visa for someone from the Foreign Ministry who is coming 
here, something along those lines.
    I don't know how often people from the Public Security 
Bureau try to get U.S. visas, but there would be lots of 
reasons to deny a visa to someone from the Public Security 
Bureau based on some of the criteria and possibly human rights 
abuses they may have been involved with, even absent of the 
issue of the foreign journalists.
    So I think that's where there would be ways to maybe think 
about how to apply pressure to the people who are making these 
decisions, or at least close to the people making these 
decisions. The other thing is I tend to agree with Bob. 
Chinese-language media is a very different landscape compared 
to English-language media.
    With English-language media, there is kind of a long way to 
go for the Chinese Government's influence to really infiltrate. 
I think it really behooves Americans to understand what China 
Daily is. They are very subtle in saying this is a leading 
English-language newspaper in China, and most Americans don't 
really know what that means.
    So I don't think it's necessarily the role of the U.S. 
Government, I think it's maybe the role of organizations like 
Freedom House, CPJ, or others, or journalists who are writing 
about these stories to inform the U.S. public about what that 
means and who owns China Daily, because that is probably the 
best protection for Americans to at least be more aware and 
open-eyed when they're reading the articles in these state-run 
Chinese media outlets.
    Mr. Liu. Okay. Well, thank you so much for coming. I want 
to give you guys an opportunity, if you have any last comments, 
otherwise we can wrap it up.
    Did you have any?
    Ms. Beech. Just to quickly follow up with an anecdote from 
Shanghai.
    Mr. Liu. Sure.
    Ms. Beech. Back when SARS was--we didn't quite know what 
SARS was. I went through lectures from the Foreign Ministry, 
and then they brought in the state security guy and that is 
sort of a step up and it's scarier.
    I said, ``So where are we going to meet? '' He wanted to 
meet at the Starbucks, the Xi Tian Di, in Shanghai, which seems 
sort of an unusual place to meet the state security man. 
Anyway, he gave me a very pro forma lecture on journalism and 
how what I was doing was not helpful for U.S.-China relations, 
and I should tell my bosses in New York. I said, ``Well, 
actually my boss is in Washington, not New York.''
    But anyway, we went on and on about this. But he was a 
pleasant guy, and afterward he said, ``Can I ask you a 
question? '' I said, ``Yes.'' He said, ``I have a daughter in 
school in Shanghai, and do you think that I should take her out 
because of SARS? '' This is in 2003.
    It occurred to me that we're not talking about a faceless 
bureaucracy of people within the Chinese Government. There are 
lots of people in the Chinese Government who want the country 
to become better and who are committed to it, and they are 
worried about their families and they are worried about a lack 
of information.
    So for me, more than any interaction with a Chinese 
official, this sort of showed me that there is concern, there 
is hope for change. Whether it's on an individual level and 
whether that will actually proliferate and mean actual 
political reform to connect to the economic reform we have 
seen, I don't know, but it was a little ray of hope.
    Mr. Dietz. I had no final comments prepared, but this is 
just another SARS anecdote. While Hannah was in Shanghai I was 
working for the World Health Organization [WHO] in Beijing 
doing risk communications and media relations during the SARS 
outbreak. For WHO, it was a completely new world of trying to 
deal with the world demand for information like that.
    I wound up working with a tremendous number of Chinese 
journalists and I was just stunned by their competence, by what 
they knew and what they couldn't report, and their sense of 
responsibility. Even if they couldn't get things into a paper 
or on air, they would come and they would sit down and give us 
debriefs of their trips to the countryside, the knowledge they 
had of the situation, and one of the ways in which the World 
Health Organization stayed on top of the situation, to the 
extent that we were able to, was through close contacts with 
Chinese journalists who were willing to share information which 
they couldn't use in their reporting. It formed my opinion of 
Chinese journalists, which is just at this point indelible. I 
just think you just have to accept that these are wonderfully 
competent, hard-working people.
    Yes, there are Party hacks and there are people who are 
just going in to collect their paychecks. But, just like you 
see journalists like these here who are working and engaged 
intellectually and are enthusiastic about what they're doing, 
there's a vast number of Chinese journalists who were doing the 
same thing, playing within a narrower field of rules, but 
working with the same integrity that other journalists outside 
China do.
    Mr. Liu. Okay. Well, we're just a few minutes over so we'll 
wrap up here. I just want to say one final word to thank each 
of you for taking time out of your busy schedule to come here 
and share your very important perspectives and helping us to 
understand these issues better; obviously it's been in the 
headlines for the last week or so. To get your perspectives and 
to get your experiences to help contextualize what's going on, 
what the situation is, has been extremely helpful. I know that 
hopefully things will improve over there.
    But with that, thank you all for coming. This roundtable is 
adjourned.
    [Applause].
    [Whereupon, at 5:08 p.m. the roundtable was concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


        Statement of The New York Times Submitted by Edward Wong

                           DECEMBER 11, 2013

    In the last year, The New York Times and other major foreign news 
organizations have been confronted with deteriorating conditions for 
doing journalism in China. The Communist Party and Chinese government 
have stepped up their efforts to shape news coverage and suppress 
stories they find objectionable, applying pressure in various forms and 
in arguably unprecedented fashion. The situation is the most serious in 
years and poses an urgent threat to our ability to report freely and 
comprehensively on the world's second largest economy.
    Most recently, Chinese officials have halted the regular year-end 
renewal process for the residency visas of nine Times journalists. If 
the renewal process does not go forward, these journalists and their 
families will be forced to leave China before the end of the year. With 
the first visas expiring in less than two weeks, the Times could be 
left without reporters in mainland China for the first time in nearly 
three decades.
    The Chinese government has also refused for many months to provide 
visas for two journalists hired for the Beijing bureau by the Times. 
Philip Pan, the incoming bureau chief, has been waiting more than a 
year and a half. Chris Buckley, who was hired from Reuters in the fall 
of 2012, had to leave Beijing a year ago when his visa from his 
previous employer expired and the government declined to provide a new 
one for the Times. He has been forced to live in Hong Kong, apart from 
his wife and daughter, who reside in Beijing.
    In addition, China has blocked access to the websites of the Times, 
including a new Chinese-language site, since the October 2012 
publication of a report on the hidden wealth of family members of the 
prime minister at the time. This severely hampers our ability to 
provide quality journalism to readers in Chinese. This fall, we started 
an online Chinese-language version of T Magazine, the Times' culture 
and lifestyle publication, only to have that blocked in November after 
publication of other stories the authorities deemed unacceptable.
    In conversations in the last year with the Times, Chinese officials 
have pointedly objected to articles that explore the intersection 
between elite politics and the economy. In other words, they are asking 
that the Times and other news organizations refrain from the kind of 
reporting that we do in every part of the world, including the United 
States. As China's economy becomes more deeply intertwined with that of 
the United States and other nations, covering the full range of issues 
in the country becomes increasingly important.
    Senior executives at the Times have tried to explain our mission 
and our viewpoint to Chinese officials. The Times increased those 
efforts last year when our websites were blocked and our visa 
applications for new journalists frozen. Despite our attempts at 
dialogue and at resolving misunderstandings, Chinese officials continue 
to treat coverage in the Times as hostile. So we find ourselves at an 
unusually uncertain moment, one that involves our core principles of 
open journalistic inquiry and also our ability to reach the large and 
news-hungry online audience in China.
    The Times remains committed to coverage of China. We have invested 
great resources in this, and we have demonstrated a willingness to 
report on all aspects of China--its politics, economy, foreign policy, 
environment, culture, sports, even fashion. We will continue to report 
on China even if our journalists are expelled from the country, though 
the range and depth of our coverage will suffer--as would our readers' 
understanding of China. We also worry that expulsions would have a 
profound chilling effect across news media organizations.
    As always, we are willing to work with all parties to ensure that 
we can remain engaged with China while performing our journalistic 
mission. That has been the goal of the Times in China since the 
country's leaders embraced a policy of reform and opening up decades 
ago.

Jill Abramson, Executive Editor
The New York Times
                                 ______
                                 

                   Prepared Statement of Robert Dietz

                           DECEMBER 11, 2013

    With the arrival of Chinese President Xi Jinping's government in 
November 2012, foreign journalists based in China say there has been an 
unmistakable hardening of attempts to control their activities through 
the denial of visas or delays in their approval. In its year-end 
statement, the Foreign Correspondents' Club of China (FCCC) said about 
the problems with visas, ``The authorities have given no public 
explanation for their actions, leading to the impression that they have 
been taken in reprisal for reporting that displeased the government. 
Chinese officials have said that foreign media in China must abide by 
Chinese laws and regulations, but they have never explained which laws 
and regulations'' are at issue to reporters who have been denied visas. 
The FCCC mentioned The New York Times bureau chief, Philip Pan, who has 
been waiting for over 18 months, and the Times' correspondent Chris 
Buckley, who has been in Hong Kong awaiting a visa for a year. Also 
mentioned by the FCCC are Paul Mooney, who is here with us today 
because he was denied a visa to work as a features writer for Reuters 
after 18 years of reporting from China, and Melissa Chan, Al Jazeera's 
English-language service correspondent, who was denied a visa in May 
2012 and effectively expelled. (Annex 1, below, contains the FCCC's 
entire statement, with a list of five detailed complaints, including 
confrontations with police, restricted travel to areas of unrest, 
harassment of locally hired staff in China, and diplomatic pressure in 
journalists' home countries about their reporting.)
    Unease around visa renewals has long been a problem in China. In 
the past, journalists applied for their visas in November and December 
and generally got them in December. A journalist's visa expires a year 
after the day it is issued. If, say, they are issued a visa on December 
15, their visa will expire the following year on December 14. Larger 
organizations with many employees submit visas on different dates, each 
with a different expiration date. Under new rules announced in June and 
July, all visas, not just those for journalists, must go through a 
screening by the Public Security Bureau that could take up to 15 
business days--though at the time of the announcement authorities said 
they would try to expedite as many cases as possible. There also seems 
to be a problem with the software developed to handle the workload. On 
Monday, Foreign Ministry spokesman Hong Lei said at a regular briefing 
that China's treatment of foreign journalists consistently follows laws 
and regulations.
    Journalists in China agree that the two media organizations 
attracting the most attention about visa renewals, The New York Times 
and Bloomberg News, do seem to be under direct threat of retaliation, 
apparently because of their critical reporting on sensitive issues in 
China. Together, about 23 or 24 staff are affected. Neither the Times 
nor Bloomberg responded to CPJ's requests for more information. (Both 
Bloomberg and The New York Times have longstanding close ties to CPJ). 
It is also worth noting that none of the journalists with whom CPJ 
spoke in recent days were willing to be fully identified. Some 
requested that they only be contacted by phone so there would be no 
email trail to link them to this presentation.
    As one journalist who worries their visa will not be renewed told 
me, ``The big question right now is--are the Chinese authorities 
bluffing?'' From what that journalist can determine, ``there is no real 
way to tell beyond waiting it out.'' This sort of situation creates 
real logistical issues for many reporters. If the government decides on 
the day before the visa's expiration date that a journalist can stay, 
the journalist may have already shipped home their personal effects and 
reporting equipment. For others with families, it is even more 
devastating. The source asked to have his identity protected because 
his is not authorized by the media company he works for to speak 
publicly about the issue.
    As it stands right now, the reporter told me, one correspondent was 
specifically told by a Public Security Bureau official that no visas 
would be renewed for their organization. It was, notably, a verbal 
conversation, so in the event that authorities reverse their decision 
there will be no proof of intended interference. Beyond that one verbal 
communication, there does not seem to be anything else from government 
officials to explain what is happening or why.
    It has worked this way in the past, too. Officials do not offer any 
information or the notion of a directive from above. Journalists simply 
wait in ``visa purgatory'' with endless phone calls and no information. 
And local police have threatened journalists with visa revocation 
before--see CPJ's March 2011 report, ``China threatens foreign 
journalists for `illegal' reporting.'' Conditions are not improving, 
and not just on the issue of visas. The FCCC's Annual Working 
Conditions Survey, published in May 2013, found that 98 percent of 
respondents do not think reporting conditions in China meet 
international standards, and 70 percent feel conditions have worsened 
or stayed the same as the year before. Only three respondents said they 
think things are getting better. (The FCCC's full survey is attached in 
Annex 2, below.)
    Have the deteriorating conditions and the tactic of possible visa 
restrictions made news organizations step back from reporting on 
stories that might anger China's government? Few reporters with whom I 
spoke in China would admit to not reporting fully on a situation either 
for fear of retaliation by the government or because the government 
specifically told them not to report. Bloomberg has strongly denied 
claims made by one of its employees that it killed a story for fear of 
angering Chinese authorities, as reported in The New York Times.
    One reporter, who works for a large news organization, did say that 
the atmosphere amid the recent visa issues is daunting: ``This action 
is definitely sending waves of fear into many smaller papers around the 
globe who have smaller staffs and budgets. In many ways, I think they 
have already actually been successful in creating fear-driven self-
censorship and symbolically showing the Western press that it doesn't 
matter who you are, we can kick you out,'' the reporter wrote to me.
    A question remains: If the government does refuse to allow current 
visa holders to stay, does that mean the number of positions for a 
large news organization will be reduced, or will other correspondents 
be allowed to take their place? Reporters in Beijing told me it would 
be fair to assume that if they were forced to leave it would take a 
long time to fill their slot and at best there would be a long 
``bumpy'' transition period.
    CPJ is glad that Vice President Joseph Biden raised the issue of 
visas and their link to the freedom to report in China while he was 
there this month. Diplomatic engagement like that is among the best 
ways to address such problems. But we are concerned by new calls that, 
if foreign journalists in China are not granted visa renewals, there 
should be retaliation from the United States (see The Washington Post's 
December 8 editorial, ``China's strong-arm tactics toward U.S. media 
merit a response.'') It is worthwhile to note that the Foreign 
Correspondents' Club of China opposes such tactics as ``not 
appropriate.'' And CPJ opposed similar calls when they arose in 2012. 
Then, H.R. 2899, the Chinese Media Reciprocity Act of 2011, was under 
discussion by the Subcommittee on Immigration Policy and Enforcement. 
The bill sought to reduce the number of visas available to journalists 
(and their families) working in the United States for 13 Chinese state-
controlled publications. The aim was to pressure Beijing into allowing 
more Voice of America reporters into China, where Voice of America was 
allowed only two China visas to cover a country of more than 1.3 
billion people.
    China says it accredits 650 foreign journalists in total to work 
within its borders--not just those from the United States. That number 
seems realistic, though there is no way to check it. And there are a 
growing number of Chinese journalists working around the world, not 
just in the United States, as China seeks to extend its ``soft'' 
diplomatic power. It would be disastrous if democratic countries were 
to launch a round of modern-era Cold War tit-for-tat accreditation wars 
aimed at restricting foreign journalists. I checked recently with a 
Chinese journalist based in the United States, and that person said 
there are no visa problems for Chinese journalists working as far as 
that person is aware. Visa applications are handled from Beijing, the 
reporter told me, and other than a face-to-face interview with an 
immigration official, journalists are not involved in the process, and 
there are no hassles. In the United States and other open democracies, 
it should stay that way.

                                 * * *

                                Annex 1

        Foreign Correspondents Club of China Year-end Statement

                      (Released December 11, 2013)

    Reviewing the conditions under which foreign reporters work in 
China, the FCCC is disturbed to note a number of negative trends over 
the past year.
    - In particular, we have found that the Chinese authorities are 
increasingly using the denial of visas, or delays in their approval, in 
an apparent effort to influence journalists` coverage. No 
correspondents for the New York Times and Bloomberg have yet been able 
to renew their annual residence visas, which have been subject to 
unusual and unexplained delays this year.
    The New York Times, since it published articles concerning the 
finances of a senior Chinese leader last year, has also been unable to 
secure resident journalist visas for either its bureau chief, Philip 
Pan, who has been waiting for over 18 months, or correspondent Chris 
Buckley, who has been in Hong Kong awaiting a visa for a year.
    Paul Mooney, a veteran correspondent known for his reporting on 
human rights issues, was denied the visa that would have allowed him to 
take a job in Beijing for Reuters. Melissa Chan, Al Jazeera's English 
language service correspondent, was denied a visa in May 2012 and 
effectively expelled.
    The authorities have given no public explanation for their actions, 
leading to the impression that they have been taken in reprisal for 
reporting that displeased the government. Chinese officials have said 
that foreign media in China must abide by Chinese laws and regulations, 
but they have never explained which laws and regulations Pan, Buckley, 
Mooney and Chan, or their employers, are said to have violated.
    - New rules, introduced this year, according to which the police 
take 15 business days (three weeks) to process visa applications, mean 
that reporters cannot leave the country during this period, making the 
work of those responsible for Asian regional coverage unnecessarily 
difficult.
    - The key rule governing foreign journalists in China--that they 
need only obtain the consent of their interviewees for an interview to 
be legal--has been progressively weakened in practice.
    The authorities have, for example, spontaneously designated 
locations, such as Tiananmen Square or the scenes of social unrest, 
where they claim the rule does not apply and where special permission 
is said to be required to film or report. FCCC members also report 
being told by local officials in different parts of China that 
citizens' employers must approve interview requests.
    We are aware of a number of cases in which Chinese citizens have 
been intimidated by police or local officials, or instructed not to 
grant interviews to foreign correspondents. The Foreign Ministry has 
publicly assured reporters that this is a violation of rules governing 
their work, but we have seen no evidence that the central government 
has taken any steps to enforce those rules.
    Large swathes of Chinese territory remain effectively out of bounds 
to foreign correspondents. Although a handful of resident foreign 
correspondents and some journalists visiting from abroad have been 
allowed into Tibet this year, strict restrictions have been imposed on 
press coverage there.
    Even in areas that are not explicitly off limits, such as Tibetan-
inhabited areas of Gansu, western Sichuan, and Qinghai, FCCC members 
have faced obstruction by local authorities that makes working there 
extremely difficult, especially since it dissuades local residents from 
talking to reporters. Journalists seeking to report on unrest in 
Xinjiang have routinely been turned back by checkpoint police telling 
them that they are forbidden to be there.
    - The police and other security services continue to apply pressure 
to foreign correspondents' news assistants. This takes the form of 
requests for information about correspondents' activities, threats and 
general harassment.
    - On at least two occasions this year Chinese embassy staff in 
foreign capitals have approached the headquarters of foreign media and 
complained about their China-based correspondents' coverage, demanding 
that their reports be removed from their websites and suggesting that 
they produce more positive China coverage.
    The Chinese authorities have repeatedly said that they are keen to 
improve foreign reporters` working conditions. We eagerly await the 
fruits of their efforts.

    FCCC Administration Office
    E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9afcf9f9f9fbfef7f3f4dafdf7fbf3f6b4f9f5f7">[email&#160;protected]</a>
    General Manager: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2345404040444e63444e424a4f0d404c4e">[email&#160;protected]</a>
    Website: www.fccchina.org

                                 * * *

                                Annex 2

                 Foreign Correspondents' Club of China

       Annual Working Conditions Survey (Released July 10, 2013)

    The past year has seen unprecedented examples of investigative 
journalism by western reporters in China. Unfortunately, the Chinese 
government has increasingly resorted to threats and intimidation 
against foreign media, according to the Foreign Correspondents' Club of 
China's annual ``Reporting Conditions'' survey* of its members, and its 
review of incidents reported over the last 12 months.
    The FCCC survey, carried out in May 2013, found that 98 percent of 
respondents do not think reporting conditions in China meet 
international standards, and 70 percent feel conditions have worsened 
or stayed the same as the year before. Only three respondents say they 
think things are getting better; the rest have not been here long 
enough to have an opinion.
    Among the FCCC's greatest concerns are

    - government retaliation against foreign media which have incurred 
official displeasure
    - threats to the physical safety of reporters whose reports have 
offended the authorities
    - increased cyber harassment and hacking attacks on foreign 
journalists
    - continuing restrictions on journalists' movements in Tibetan-
inhabited areas of China
    - official harassment of sources
    - official intimidation of reporters' Chinese assistants

    The survey found 63 cases in which police officers or unknown 
persons impeded foreign reporters from doing their work, including nine 
cases in which reporters were manhandled or subjected to physical 
force. This represents a welcome drop from last year, but remains 
unacceptable.

    ``Attacks on journalists, those working with them and their sources 
have replaced detention by uniformed police.'' A US radio 
correspondent.

    ``It has now become normal that uniformed police stand with arms 
folded as plainclothes `thugs' appear. The thugs are often violent. I 
have received many bruises during these incidents.'' A British TV 
correspondent.

                 OFFICIAL RETALIATION AND INTIMIDATION

    Victims of government retaliation include The New York Times and 
Bloomberg. The New York Times English and Chinese language websites are 
blocked in China and the newspaper has been unable to secure journalist 
visas for either Bureau Chief Philip Pan or correspondent Chris 
Buckley. Bloomberg has also been unable to secure journalist visas in 
order to replace its correspondents and the company has reportedly 
suffered significant commercial harm from a drop in sales of its data 
terminals.
    Three other media companies, France 24, ARD TV (Germany) and the 
Financial Times have also come under unusual Chinese government 
pressure after publishing news reports that angered the Chinese 
authorities. Chinese embassy officials in Paris, Berlin and London 
lodged direct complaints with senior editors, in an apparent effort to 
pressure them into restraining their reporters in Beijing.
    Although routine delays in the provision of journalist visas appear 
to have shortened in recent months, ten percent of survey respondents 
reported difficulties in obtaining official press accreditation or a 
journalist visa on account of their reporting or that of their 
predecessors.

    ``My paper has been working on my accreditation since August last 
year. The authorities stated that the difficulties were due to the work 
of my predecessor.'' A European newspaper reporter.

    Intimidation can also be more particular and more threatening. One 
foreign reporter whose articles angered elements of the Chinese 
government was told by the manager of the building where he lives that 
security officials had visited and asked the manager questions about 
the reporter's family life, the layout of his apartment, where his 
children went to school and other personal questions.

                             CYBER ATTACKS

    Cyber attacks on FCCC members have become routine. Though we cannot 
identify the origin of these efforts to install malware and spyware on 
our computers, the club's cyber-security consultant has found that many 
of the attacks are targeted deliberately at foreign correspondents 
based in China.

                  GEOGRAPHICAL REPORTING RESTRICTIONS

    Restrictions on foreign journalists' access to ``sensitive'' areas 
of the country remain widespread, arbitrary and unexplained. Reporters 
have been told by officials in Qinghai that all Tibetan-inhabited areas 
of China are off-limits to the foreign press. Though such a blanket ban 
is not always applied, local officials have repeatedly interfered with 
reporting work.

    ``I was road-blocked, denied access and constantly followed and 
monitored in Qinghai from the day of my arrival.'' A French newspaper 
correspondent.

                         HARASSMENT OF SOURCES

    Previous FCCC reports on working conditions in China have 
complained about the official harassment of Chinese citizens who talk 
to reporters, which they are free to do if they so choose according to 
the Chinese government regulations governing foreign journalists' 
activities. Such harassment continues at the same level as ever: the 
survey found 23 such cases in 2012-2013.
    ``After reporting on self-immolations in Qinghai I learned that my 
local fixer had been harassed by the police. They showed him all the 
Skype and phone contacts he had had with foreign journalists. He seemed 
scared.'' A European newspaper reporter.

                        HARASSMENT OF EMPLOYEES

    30 percent of respondents to the FCCC survey said that their 
Chinese assistants had been called in by the police or other security 
forces to ``drink tea'', a euphemism for an interrogation. The 
employees are commonly asked to inform the police about reporters' 
activities and plans. Two such assistants have reported that their 
relatives have also come under official pressure on account of their 
work.

                                ADDENDUM

    The following cases of sometimes violent interference, reported to 
the FCCC over the past year, illustrate the difficulties that foreign 
correspondents in China face.

                             February 2013

                        German TV crew attacked

    A TV crew belonging to ARD television, narrowly avoided serious 
injury when two men, apparently linked to local authorities in Hebei 
province, attacked their vehicle with baseball bats, shattering the 
windscreen, after a high speed chase down a major highway near the city 
of Sanhe, 50 km east of Beijing.
    ARD correspondent Christine Adelhardt, accompanied by two German 
colleagues and two Chinese staff, had been filming in the village of Da 
Yan Ge Zhuang for a report on urbanisation, one of the incoming Chinese 
government's major challenges and a process that has often provoked 
disputes over land ownership.
    ``We were filming the village square, where you could see old style 
farmers' houses next to a newly-built mansion behind a wall and high-
rise buildings in the background,'' said Adelhardt, when a car drew up 
next to them. The car's driver began filming the TV crew.
    When the crew left, two cars, later joined by at least two others, 
gave chase, trying to force the Germans' minivan off the road and to 
deliberately cause a collision. They forced the ARD driver to stop at 
one point, whereupon five or six men surrounded the car, attempted to 
get in, and hammered on the windows with their fists.
    The crew got away, but were pursued, forced off the road and onto 
the sidewalk, rammed, and made to stop. Two men from the pursuing 
vehicles attacked the minivan with baseball bats, shattering its 
windscreen, before the ARD driver was able to get away again by 
bulldozing his way past a car parked in front of the ARD van.
    The crew then came across two motorcycle policemen and asked them 
for help. Their pursuers caught up with them, and again began smashing 
and punching holes in the car's windscreen, despite the police 
officers' attempts to control them.
    A local resident who witnessed the scene later told Adelhardt that 
one of the cars involved in the pursuit belonged to the Da Yan Ge 
Zhuang village Communist party secretary.
    Eventually, police reinforcements arrived, and escorted the ARD 
crew to a local police station, where Adelhardt and her colleagues were 
questioned. Adelhardt saw a number of the men who had attacked her car 
at the police station, but was not sure whether they were detained. 
When she asked to file a charge of attempted homicide, she was assured 
by a local official that such charges had already been laid against the 
men.
    But a policeman told her that the investigation had found that 
villagers had been ``offended'' by the TV crew's presence and that they 
should have asked permission to film.
    Chinese government regulations governing foreign journalists in 
China state expressly that such prior permission is not required to 
film in public spaces.

                               July 2012

                        Japanese reporter beaten

    Atsushi Okudera, a correspondent for Asahi Shinbun in Shanghai, was 
injured after police officers pushed him to the ground and kicked him 
in the head and about the body while he was covering the mass 
demonstration on July 28 in Nantong's Qidong district. His camera was 
confiscated.

                             December 2012

                German correspondent's equipment ruined

    Der Spiegel correspondent Bernhard Zand and his Chinese assistant 
were reporting on the case of five boys who died of carbon monoxide 
poisoning in Bijie, Guizhou. In the course of their work they met the 
journalist who had first broken this story and who had then disappeared 
for several weeks, Li Yuanlong.
    They were followed throughout their stay in Bijie by unidentified 
men. On the evening of Dec. 29th they checked into the Kempinski Hotel 
in Guiyang. When they returned from supper to their rooms they found 
that Bernhard's tablet computer and an iPhone had been destroyed by 
submersion in water (they were still wet), all the photos on an SD 
memory card in his computer had been deleted, and a large number of 
files had been deleted from his laptop. Most of the files on his 
assistant's laptop, in the next-door room, had also been deleted.
    Bernhard filed a complaint the next morning with the local police, 
but their investigations did not uncover the culprits. The Kempinski 
Hotel's security chief said the CCTV cameras with a clear view of the 
doors to the two rooms in question had not recorded any pictures at the 
relevant time, and hotel staff said that the hotel does not keep logs 
of guestrooms' electronic door locks.

                               March 2013

                Hong Kong journalists beaten in Beijing

    On March 8, two Hong Kong journalists were beaten outside the home 
of Liu Xia, the wife of jailed Nobel laureate Liu Xiaobo. A group of 
unidentified men beat TVB cameraman Tam Wing-man and Now TV cameraman 
Wong Kim-fai, as they were filming an activist's attempt to visit Liu 
Xia, who is under house arrest at her apartment building.
    The attackers, who did not identify themselves, suddenly appeared 
from around a corner, shouted at the group of journalists outside the 
building, and demanded that they stop filming. One of the Hong Kong 
cameramen was punched in the face and pushed to the ground, while the 
attackers attempted to confiscate the other's camera and hit him in the 
head.
--------------
* About the survey: The FCCC conducts an annual survey on reporting 
conditions. The survey was sent to 232 FCCC correspondent members in 
Spring 2013, of whom 98 replied. Figures indicate an absolute number of 
responses, unless otherwise indicated. When percentages are used, they 
reflect all respondents to that specific question. Not all respondents 
answered every question. Data may be used if credit is given to the 
Foreign Correspondents' Club of China (FCCC).
                                 ______
                                 

                    Prepared Statement of Sarah Cook

                           DECEMBER 11, 2013

    Thank you Mr. Chairman and other members of the commission for 
convening this very timely and important roundtable discussion.
    In my remarks this afternoon, I will focus on three aspects of the 
Chinese government's relationship with international media that reach 
beyond the obstructions targeting individual journalists based inside 
China.

        <bullet> The use of collective punishment tactics to impede the 
        work of news organizations and discourage the dissemination of 
        certain critical reporting.
        <bullet> The aspects of these dynamics that take place outside 
        China's borders.
        <bullet>  The long-term impact of these pressures on news 
        coverage, human rights, and media sustainability.

    My remarks are primarily drawn from a report I authored that was 
published in October by the National Endowment for Democracy's Center 
for International Media Assistance titled The Long Shadow of Chinese 
Censorship. The full report is available online but I would like to 
submit the chapter on international media and another segment for the 
record alongside my testimony.

                         COLLECTIVE PUNISHMENT

    The impact of the obstacles other panelists have noted reaches 
beyond an individual journalist's career or physical safety, affecting 
the broader ability of news organizations to report from China. When 
American television correspondent Melissa Chan's visa renewal was 
refused, al-Jazeera English had to shutter its presence in China 
because no visa was granted for a replacement.\1\ Bureau chiefs from 
U.S. outlets like the New York Times or the Washington Post have also 
been unsuccessful in securing visas, though their colleagues still 
report from inside the country.\2\ Several correspondents have told the 
Foreign Correspondent's Club of China that officials implied their visa 
delay was due to their predecessor's reporting.\3\
    These examples reflect a broader phenomenon whereby the targets of 
Chinese sanctions expand beyond specifically offending content or an 
individual journalist to collective retaliation against an entire 
outlet, sometimes with notable financial implications. The Chinese 
government's multi-faceted reaction to investigative reports by 
Bloomberg and the New York Times in 2012 about large financial holdings 
by the kin of then Vice President Xi Jinping and Premier Wen Jiabao 
exemplify these dynamics.\4\
    In both instances, the Chinese authorities chose to block the 
outlet's entire website indefinitely, an unusual move against major 
news organizations.\5\ This was despite the capacity of the country's 
refined Internet filters to block individual pages within a website--a 
tactic employed regularly to restrict access to articles deemed 
sensitive within otherwise tolerated sources. At present, both sites 
remained inaccessible from China. As the previous panelists have noted, 
both organizations have also faced significant challenges renewing or 
gaining new visas for their correspondents, including those uninvolved 
in the offending investigations.
    Reflecting their varied business operations in China, the official 
retaliation against the two outlets manifested differently. For the 
Times, the blocking of not only its English but also of its newly 
launched Chinese-language website produced palpable financial losses. 
Overnight, the company's stock lost 20 percent of its value, though it 
slowly recovered over the following months.\6\ The outlet was also 
forced to renegotiate agreements with numerous advertisers, causing 
revenue loss.\7\
    Bloomberg's English-only website does not have a broad audience 
within China. The blocking thus seems motivated less by a wish to 
damage Bloomberg's access to Chinese readers, than by a desire to 
signal that finance-oriented news sources are not exempt from wholesale 
blocking if they embark on sensitive political investigations.\8\ More 
central to Bloomberg's operations in China are its financial data 
terminals, used by large banks and firms.\9\ The public gesture of 
blocking its website was combined with other threatening measures 
including having security agents tail some Bloomberg employees and 
Chinese bankers cancelling previously arranged meetings with the 
outlet's editor-in-chief.\10\
    Such actions appear to have deterred at least some would-be 
business partners and clients.\11\ According to the Foreign 
Correspondents Club of China, Bloomberg ``reportedly suffered 
significant commercial harm from a drop in sales of its data 
terminals.'' \12\

                 GEOGRAPHIC REACH NOT LIMITED TO CHINA

    The geographic reach of obstructions to international news 
reporting is increasingly not limited to China. This trend manifests in 
several ways.
    In early 2013, several news organizations--including the New York 
Times, the Wall Street Journal, and the Washington Post--publicized 
that they had been the victims of complex cyberattacks by Chinese 
hackers. The attacks not only targeted individual China-based 
journalists, but also infiltrated the companies' servers outside China. 
The attackers apparently wished to obtain pre-publication warning on 
reports critical of the Chinese government and to identify sources of 
information provided to foreign correspondents. Though the attacks 
could not be conclusively traced to Chinese government entities, 
several features lend credibility to that assertion.\13\
    In other instances, the connection to Chinese government actors has 
been more explicit as officials take direct action by pressuring 
international media executives and senior editors to take down or 
refrain from publishing a critical report.
    Both the New York Times and Bloomberg were strongly urged to drop 
the articles about top leaders' family assets when Chinese officials 
became aware of the upcoming exclusives. After Bloomberg offered the 
Chinese government an opportunity to comment two weeks before 
publication, the Chinese ambassador to the United States met personally 
with the company's editor-in-chief in Washington alongside other 
behind-the-scenes pressure.\14\
    These pressures are not limited to the United States. In June 2013, 
the television station France 24 reported that Chinese embassy 
officials visited its Paris headquarters and met with the chief 
executive after it aired a brief documentary titled ``Seven Days in 
Tibet.'' According to Reporters Without Borders, the diplomats 
denounced the piece and demanded its removal from the station's 
website, a request the outlet refused.\15\ Without providing the full 
details, the FCCC noted similar incidents occurring in London and 
Berlin over reporting by the Financial Times and ARD TV, 
respectively.\16\
    Chinese security agents and local police have repeatedly harassed 
foreign journalists in Nepal who were reporting on the treatment of 
Tibetan refugees. In February 2012, a CNN crew reported that men 
appearing to be plainclothes Chinese security personnel crossed the 
border into Nepal and followed them deep into a Nepalese village as 
they tried to interview residents for a story on Tibetan refugees.\17\

                            LONG-TERM IMPACT

    Hard-hitting reporting from China continues to reach newsstands and 
television screens around the world. Nonetheless, the Chinese 
government's efforts to thwart independent investigations have taken a 
toll on international media coverage of the country.
    When sources are intimidated into silence, journalists are forced 
to abandon potentially newsworthy stories--including on health issues 
like AIDS and deadly asbestos--or invest an inordinate amount of time 
and money to complete them.\18\
    Lack of unimpeded access to regions such as Xinjiang and Tibet has 
hindered independent investigations of severe crackdowns, enforced 
disappearances, and torture. Blocked access has sometimes forced 
overreliance on Chinese state media reports, whose unverified details--
on the death toll during ethnic unrest, for example--eventually seep 
into Western news items as statements of fact. The blocking of foreign 
correspondents from Tiananmen Square in late October following an 
attack by a speeding SUV helped reinforce the Chinese government's 
questionable narrative that this was a premeditated assault by Uighur 
``terrorists.'' \19\
    Psychological elements add another dimension, as fears over 
physical safety, access to the country or family privacy can make 
reporters think twice about what they write. According to freelance 
journalist Paul Mooney, who at the time of our interview was awaiting a 
visa (which has since been denied), a cautious mood has settled over 
the foreign press corps over the past year:

        I'm sure that a lot of journalists would deny being intimidated 
        by such tactics . . . but I'm positive that some people buckle 
        and keep away from certain `''sensitive'' topics because 
        they're afraid of not getting a visa . . . Recently, some 
        colleagues have encouraged me to stop Tweeting and making 
        comments about China on other social media and academic list 
        serves, which we assume are being monitored. It's in the back 
        of my mind all the time, but I've not curtailed what I do.\20\

    Meanwhile, collective punishment tactics generate conflicting 
stances among departments within a news organization, as sales are 
potentially damaged or boosted by editorial decisions.
    International media have oftentimes defiantly resisted direct and 
indirect pressures to alter their content, despite potential financial 
losses.
    But not always. Even well respected outlets have faced allegations 
of self-censorship, sometimes with a lag time from when Chinese 
pressure was initially applied. The recent reports of apparent 
decisions by Bloomberg executives to curb the publication of stories 
investigating the links between Chinese tycoons and the political elite 
are one such example.\21\ In 2012, the Washington Post's then 
ombudsman, Patrick B. Pexton, questioned the paper's handling of an 
interview with Xi Jinping that was printed verbatim based on Chinese-
dictated questions and replies. He noted the Post's difficulty securing 
visas and the receipt of significant income from a Chinese-state run 
advertorial insert as pressure points.\22\
    More broadly, a 2009 academic study found that reports about the 
Falun Gong spiritual practice in major Western news outlets and wire 
services were few and far between, despite the ongoing scale and 
severity of abuses suffered by its adherents.\23\ The author cited 
self-censorship and CCP obstructions as two factors contributing to the 
phenomenon. Despite periodic stories, this trend has largely continued. 
Over the past year, dozens (and more likely hundreds) of Falun Gong 
adherents have been detained and sentenced to prison, in some cases for 
up to 12 years.\24\ Yet there has been almost no coverage in major news 
outlets of the crackdown, despite its implications for how one might 
interpret other headline-grabbing developments like reform of the labor 
camp system.
    The existence of self-censorship is difficult to conclusively 
document, but such incidents are nonetheless a reminder of the CCP's 
capacity to influence Western media reporting on China. As Pexton 
notes, ``There is interdependence in the relationship, and constant 
negotiation and compromise. The Chinese know it, and they take 
advantage of it.'' \25\
    Much is at stake as this transnational contestation unfolds. 
Independent media outlets facing Chinese reprisals experience rising 
costs and loss of advertising revenue in an already competitive and 
financially challenging industry. Individual reporters encounter 
restrictive editorial policies, threats to their livelihood, and even 
physical injury. News consumers outside China are deprived of 
information for assessing the political stability of a major trading 
partner, responding to health and environmental crises, or taking 
action to support Chinese people's quest for a more free and just 
society.
    For Chinese people, the stakes are even higher. In the age of 
microblogs, circumvention tools, international travel, and satellite 
television, overseas media outlets offer a vital source of information 
on matters with life-or-death consequences, be they torture, 
environmental pollution, or threats to public health. Their ability to 
function and report uncensored news promotes transparency and 
accountability in an opaque and arbitrary political system.
    Absent a concerted international response to Chinese government 
obstructions, the situation is likely to further deteriorate as China's 
international role expands alongside a deep sense of Communist Party 
insecurity at home. Meanwhile, some measures initially aimed at 
restricting coverage of China could potentially be employed to affect 
reporting on important events in other societies. At one point, the 
heightened activity of Chinese hackers who had infiltrated the New York 
Times global server on the night of the 2012 U.S. presidential election 
reportedly prompted fears among senior editors that the site could be 
compromised at a critical time. Ultimately, the hackers were focused on 
the narrow objective of tracking information related to an expose about 
the financial holdings of Premier Wen Jiabao's family, but the incident 
highlighted the potential for cyberattacks by the Chinese government or 
its sympathizers to impact coverage of political consequence in the 
United States.\26\

                            RECOMMENDATIONS

    In terms of actions that the U.S. government might take in 
response, Vice President Biden's raising of this issue both privately 
and publicly during his recent visit to China is a welcome start. 
However, such statements must be backed up with real action and 
sanctions if the Chinese government does not heed such warnings. 
Otherwise, the United States risks sending the message that its concern 
over this issue is not genuine and that it is unwilling to put real 
political and diplomatic weight behind protecting the freedoms of its 
journalists--an outcome likely to only embolden Chinese government 
hostility towards foreign media.
    As the United States government explores possible responses, 
Freedom House would strongly recommend taking a multi-lateral approach 
and consulting with like-minded government to formulate a united 
stance. Although most of the examples cited today have involved U.S.-
based media, this is hardly a problem limited to American news 
organizations. There are hundreds of foreign correspondents based in 
China from dozens of countries and many of them face similar 
restrictions. A collective response from the United States, European 
governments, as well as perhaps Japan and Australia would carry greater 
weight than a U.S.-only reaction. It would also leave the United States 
and American journalists less vulnerable to future retaliation.
    Thank you again for holding this roundtable and for giving me an 
opportunity to contribute the above observations to the discussion.

------------------------

    \1\ ``Al Jazeera English Forced Out of China,'' Al Jazeera, May 9, 
2012, http://www.aljazeera.com/news/asia-pacific/2012/05/
201257195136608563.html.
    \2\ Foreign Correspondents' Club of China Annual Working Conditions 
2013; Will Sommer, ``Post's Chinese Visa Fight Ends With a Whimper,'' 
City Desk (blog), Washington City Paper, September 17, 2012, http://
www.washingtoncitypaper.com/blogs/citydesk/2012/09/17/posts-chinese-
visa-fight-ends-with-a-whimper/.
    \3\ Foreign Correspondents' Club of China Annual Working Conditions 
2013.
    \4\ Michael Martina, ``Bloomberg Sites Blocked in China Days After 
Xi Family Wealth Story,'' Reuters, July 4, 2012, http://
www.reuters.com/article/2012/07/04/us-china-censorship-bloomberg-
idUSBRE86306820120704; Keith Bradsher, ``China Blocks Web Access to 
Times After Article,'' New York Times, October 25, 2012, http://
www.nytimes.com/2012/10/26/world/asia/china-blocks-web-access-to-new-
york-times.html.
    \5\ Simon Rabinovitch, ``China Keeps Up Block on Bloomberg 
Website,'' Financial Times (London), July 28, 2012, http://www.ft.com/
intl/cms/s/0/4965b226-d952-11e1-8529-00144feab49a.html#axzz2aksVfw2D.
    \6\ ``The New York Times Company,'' Yahoo! Finance, http://
finance.yahoo.com/q/
hp?s=NYT&a=6&b=16&c=1986&d=6&e=17&f=2013&g=d&z=66&y=132.
    \7\ Margaret Sullivan, ``'Great Journalism' That Has Unwanted 
Business Impact in China,'' New York Times, October 26, 2012, http://
publiceditor.blogs.nytimes.com/2012/10/26/great-journalism-that-has-
unwanted-business-impact-in-china/.
    \8\ Traditionally, though not always, the Chinese authorities have 
been more tolerant of critical reporting related to financial and 
economic matters, compared to political or human rights ones.
    \9\ Nonetheless, China remains a relatively small market for the 
terminals, with about 3,000 operating compared to 10,000 in Hong Kong 
and 100,000 in the United States, according to Howard Winn of the South 
China Morning Post. Howard Winn, ``Sino-Bloomberg Relations Remain 
Unsettled After Xi Story,'' South China Morning Post (Hong Kong), 
September 14, 2012, http://www.scmp.com/business/article/1036193/sino-
bloomberg-relations-remain-unsettled-after-xi-story.
    \10\ Rabinovitch, ``China Keeps Block on Bloomberg.''
    \11\ Ibid; Winn, ``Sino-Bloomberg Relations.''
    \12\ Foreign Correspondents' Club of China Annual Working 
Conditions 2013.
    \13\ Nicole Perlroth, ``Hackers in China Attacked the Times for 
Last 4 Months,'' New York Times, January 30, 2013, http://
www.nytimes.com/2013/01/31/technology/chinese-hackers-infiltrate-new-
york-times-computers.html?pagewanted=all ; Jonathan Kaiman, ``New York 
Times Claims Chinese Hackers Hijacked Its Systems,'' Guardian (London), 
January 31, 2013, http://www.theguardian.com/media/2013/jan/31/new-
york-times-chinese-hacked
    \14\ Winn, ``Sino-Bloomberg Relations.''
    \15\ The journalist who filmed the segment undercover during a 
seven-day visit to Tibet also received harassing and threatening 
messages from Chinese diplomats in Thailand while visiting Bangkok. 
``Chinese Diplomats Threaten French Journalist After Tibet Report,'' 
Reporters Without Borders, June 11, 2013, http://en.rsf.org/chine-
chinese-diplomats-threaten-french-11-06-2013,44762.html .
    \16\ Foreign Correspondents' Club of China Annual Working 
Conditions.
    \17\ Sara Sidner, ``Is China Pushing Nepal to Crack Down on 
Tibetans,'' CNN, February 22, 2012, http://edition.cnn.com/2012/02/21/
world/asia/china-tibet-nepal.
    \18\ Paul Mooney, email communication to author, July 10, 2013.
    \19\ Sarah Cook, ``Be Skeptical of the Official Story on the 
Tiananmen Car Crash,'' Freedom at Issue (Freedom House blog), November 
4, 2013, http://www.freedomhouse.org/blog/be-skeptical-official-story-
tiananmen-car-crash
    \20\ Mooney email interview.
    \21\ Edward Wong, ``Bloomberg News is Said to Curb Articles that 
Might Anger China,'' The New York Times, November 8, 2013, http://
www.nytimes.com/2013/11/09/world/asia/bloomberg-news-is-said-to-curb-
articles-that-might-anger-china.html?--r=0
    \22\ Patrick B. Pexton, ``Caving to China's Demands,'' Washington 
Post, February 24, 2012, http://articles.washingtonpost.com/2012-02-24/
opinions/35442979--1--transcript-mutual-benefit-questions.
    \23\ Leeshai Lemish, ``Media and New Religious Movements: The Case 
of Falun Gong'' (paper, 2009 CESNUR Conference, Salt Lake City, UT, 
June 11-13, 2009), http://www.cesnur.org/2009/slc--lemish.htm.
    \24\ Interviews with Chinese activists who wished to remain 
anonymous, November 2013; Falun Dafa Information Center, ``Reports 
Confirm Ongoing Persecution in China Despite Labor Camp Closures,'' 
October 10, 2013, http://www.faluninfo.net/article/1305/Reports-
Confirm-Ongoing-Persecution-in-China-Despite-Labor-Camp-Closures/
?cid=84.
    \25\ Pexton, ``Caving to China's Demands.''
    \26\ Perlroth, ``Hackers in China'' (see n. 13).
                                 ______
                                 

  Opening Statement of Hon. Sherrod Brown, a U.S. Senator From Ohio; 
      Chairman, Congressional-Executive Commission on China (CECC)

                           DECEMBER 11, 2013

    Today I am calling on China to immediately cease its policy of 
harassing foreign journalists, denying and delaying their visas, and 
blocking the websites of foreign media in China. If the situation does 
not improve, we must consider other steps that Congress may take to 
address the issue.
    Our approach is critical. China is the world's most populous 
country and our second-largest trading partner. It faces daunting 
challenges, from crippling pollution and widespread corruption, to 
suppression of the basic freedoms we take for granted. And as we have 
seen recently, China is increasing its military posture in the region.
    What happens in China affects us all.
    It is therefore imperative that we have a complete and accurate 
picture of what is going on there.
    But we can't do that without foreign journalists.
    If foreign journalists cannot report the news in China, who will 
investigate the financial dealings of China's top leaders and their 
families?
    Who will report on Tibet and Xinjiang and the plight of human 
rights activists?
    Who will investigate labor conditions at factories that make 
products sold in America?
    It has to be the foreign press because China's own journalists are 
hamstrung by severe censorship.
    That's why China's recent actions to shut down foreign journalists 
are so troubling.
    What's happening now has few precedents.
    If 23 reporters don't get their visas by the end of the year, The 
New York Times and Bloomberg may not be able to cover China at all.
    China has now made this a fair trade issue by blocking access to 
the web sites of The New York Times, Bloomberg, Reuters, and the Wall 
Street Journal.
    And in November, Chinese officials denied a visa to American 
journalist Paul Mooney after he had been reporting in China for the 
past 18 years.
    For years foreign journalists in China have had to endure periodic 
beatings, interrogations, and harassment just to do their job.
    But what is new is that China is now threatening to use its weapon 
of last resort--closing the country off to the rest of the world.
    We must do all we can to prevent that from happening.
                                 ______
                                 

                       Submission for the Record

                              ----------                              


         Written Statement of Paul Mooney, Freelance Journalist

                           DECEMBER 11, 2013

    I'm very happy to have the opportunity to speak at this roundtable 
and I would like to thank Senator Sherrod Brown and Representative 
Christopher Smith for providing this platform to discuss the serious 
deterioration of the treatment of foreign journalists in China.
    On November 8, the Chinese government informed Reuters that my 
application for a journalist visa had been denied, ending an eight 
month wait for my visa, and my 18-year career as a foreign 
correspondent in China. No reason was given for the refusal, but a 90-
minute visa interview at the Chinese Consulate in San Francisco last 
April focused on my views on human rights, rule of law, the Dalai Lama, 
and Tibet. At the end of the interview, the consular official said to 
me: ``If we allow you to return to China, we hope you're reporting will 
be more objective.''
    Although Beijing made some concessions to the media to win the 
right to host the 2008 Olympics, as soon as the Games were over, the 
government began to tighten controls again. In 2009, we began to see an 
increasing number of foreign journalists who faced extended delays in 
getting their visas approved. In these cases, the journalists had in 
the previous 12 months reported on sensitive issues, and while reasons 
were not usually given by the government, it was clear to the people 
involved why they were being targeted. Beijing has long used the threat 
of expulsion as a means of influencing international journalists in 
China.
    In 2012, Melissa Chan, an American journalists working for Al 
Jazeera, was refused a visa renewal and was forced to leave the 
country. She was the first foreign journalist to be kicked out of China 
in 13 years. Such decisions are extremely rare, and it signaled a 
worrisome shift in China's handling of the foreign media. In addition, 
Phil Pan and Chris Buckley of the New York Times, and a handful of 
reporters from Bloomberg, have been waiting for more than a year to get 
visas to move to China to do reporting.
    The situation has dramatically worsened in recent months, with some 
two dozen journalists from the New York Times and Bloomberg today 
facing the possibility of not getting their visas renewed, which would 
have a serious impact on the ability of these news organizations to 
report about China.
    China has given no reason for failing to approve these visa 
applications, only saying that this was done in accordance with Chinese 
laws and regulations. However, Beijing has not provided any examples of 
wrongdoing, leading to speculation that this is in retaliation for 
reporting that displeased senior Chinese officials.
    These drastic actions may have a strong impact on other journalists 
in China, who will now worry that their reporting on sensitive issues 
will result in expulsion from the country.
    I'd like to first state that my reporting, and that of my 
colleagues, is not anti-China. Many of us have spent years learning 
about China and studying the language, and we have a deep affection for 
China and the Chinese people.
    I reported accurately what I saw and heard from Chinese people: the 
parents of kidnapped children, AIDS victims, people in cancer villages, 
migrant workers, poor farmers, the handicapped and others who have been 
left behind by the so-called Chinese economic miracle. The Chinese 
government may not like what I reported, but during my close to two 
decades in China, it never once challenged the accuracy of my 
reporting.
    During my last two years working in Beijing, from 2010 to 2012, I 
was not given the normal one-year visa, but instead three- and six-
month visas. Few journalists get such limited visas and the purpose is 
to make reporters self-censor in order to be allowed to remain in 
China.
    Foreign journalists in China often work under psychological 
pressure. The government strives to conceal the truth about China, and 
this makes the job of journalists very difficult. I got a taste of this 
the first week I arrived in China to work in 1994, when police at the 
Bureau of Entry and Exit responsible for issuing journalist visas took 
me into a back room and sternly warned me not to violate any laws. What 
they really meant was I shouldn't write about things the government 
didn't want me to cover. Weeks later, the police officer in charge of 
monitoring me, stopped me from entering a Protestant church on a Sunday 
morning, where Chinese Christians had been outspoken in defense of the 
right to freely practice their faith, a right that's guaranteed in the 
Chinese Constitution.
    Foreign journalists in China play a daily game of cat and mouse 
with the Chinese police and security agencies. Our movements are 
closely monitored, a task made easy by the J (for journalist) visas in 
our passports that are like a scarlet letter. They know whenever we 
purchase an airline ticket and they're notified as soon as we check 
into a hotel anywhere in China. They also use our mobile phones to 
monitor our movements and even listen in to our conversations. It's a 
common practice among foreign corresponders in China not to take their 
mobile phones with them when they do sensitive interviews because it's 
believed the police have the ability to use them as a listening device, 
even if the mobile phone is turned off and the battery is removed. When 
traveling, journalists sometimes turn off their phones or frequently 
change their phone cards to limit the ability of the police to monitor 
them. In some cases, Chinese news assistants are invited to ``have 
tea'' with security agents or police, who pressure them to report on 
their bosses, such as which stories they plan to report on, people they 
interview and travel plans.
    During a brief flirtation with the Jasmine Revolution in Beijing in 
2011, foreign journalists in Beijing were jostled by plainclothes 
police when they tried to visit the area where Chinese were expected to 
carry out silent protests. Stephen Engle, a reporter for Bloomberg 
Television, was beaten in public view on the streets of Beijing. The 
Ministry of Foreign Affairs denied this a few days later, despite the 
fact that a video proved the beating's occurrence. Colleagues were 
warned not to go to the protest site over the following weeks, with the 
Ministry of Foreign Affairs openly warning journalists that their visas 
might not be renewed if they disobeyed this request. Police called the 
homes of journalists to warn them not to cover this event, and in a few 
cases, police actually turned up at the homes of foreign journalist to 
issue stern warnings.
    Traveling can also be dangerous. It's common for local officials or 
police to detain foreign journalists while they're working. I almost 
always traveled alone to do reporting, and when covering sensitive 
stories I often worried about being detained and having my notes and 
photographs confiscated. My wife and two daughters also worried about 
me as they knew there were risks involved in the reporting I did.
    While it's difficult to ascertain the source of some things, our 
computers are frequently attacked with malware, and in some cases, 
journalists and their families are threatened physically via phone 
calls and emails. One colleague told me recently of being called into 
police stations on two occasions, where she was shouted at, threatened 
and filmed during the process.
    More troubling for me, was the intimidation of the people I came 
into contact with during my reporting. An important Chinese rule 
governing foreign journalists, the result of the Olympics concessions, 
says that foreign journalists only need to obtain the permission of 
interviewees for an interview to be legal. In reality, this often is 
not the case. Journalists are frequently physically prevented from 
speaking to Chinese and sources are often threatened or punished for 
speaking to us. In one recent incident, Ilham Tohti, a prominent 
university economist, was harassed by police, who rammed into his car 
while his family was sitting in it. The police allegedly told him it 
was because he had spoken to foreign journalists.
    I often worried that people would get into trouble for speaking to 
me. In several cases, I later received phone calls from people I'd 
interviewed, telling me they'd been visited by police, and in at least 
two cases, people told me that they were briefly detained by the 
police, including a taxi driver who had no idea who I was and who had 
not helped me in any way.
    Tibet is completely off limits to foreign journalists, who can only 
travel there with a special permit that's quite difficult to obtain. 
I've applied several times for permission to travel to Tibet, but I've 
never gotten permission. Even when reporting on Tibetan areas outside 
of the so-called Tibet Autonomous Region, journalists are often 
restricted. For example, I have been prevented by police from entering 
Tibetan areas in Gansu province. And although Xinjiang is theoretically 
open to the media, in some cases the provincial government requires 
that journalists get special permission before reporting there, which 
is a violation of China's own regulations governing journalists. This 
seriously impedes the ability of the foreign media to report freely in 
these areas.
    During a trip to Kashgar, in Muslim-dominated Xinjiang province, 
police arrived at my hotel within 15 minutes of my arrival, and I was 
followed the entire time I was there. During another visit, Xinjiang 
police forced me to check out of my hotel shortly after I arrived, and 
they forced me move into a hotel designated for foreign journalists.
    Over the next three days, I was not allowed to leave the hotel 
without a police escort. The officers who stayed with me from morning 
to night made sure I didn't speak to any Uyghur people and they didn't 
allow me to take any photographs. At the time, tensions were high in 
the area; armed police marched through the streets, and truckloads of 
soldiers crisscrossed the city. The government obviously didn't want 
anyone to report on this. On the fourth day, police officials put me on 
a train and sent me out of Kashgar.
    When I was reporting last year in an AIDS village, local officials 
entered the farm house where I was conducting an interview just minutes 
after my arrival. Five of the six people in that family had contracted 
AIDS as a result of selling their blood to illegal blood collection 
centers set up by local governments. As I didn't want to get the family 
into trouble--although they agreed to speak with me, and realized the 
risk--I left the village immediately. Shortly after getting into our 
car and driving off, the AIDS victim who had been accompanying me, 
received a phone call from officials in her village insisting that she 
return home immediately. I completely avoided other AIDS villages 
because I was told that swarms of police were on the lookout for both 
Chinese and foreign journalists attempting to enter these areas. As a 
result, AIDS victims who were keen to speak with me, traveled to nearby 
towns to meet with me. I also made secret visits to seriously ill AIDS 
victims in rural hospitals, but I was kicked out of one hospital after 
hospital officials realized I was there. On my final day in one town, I 
barely left the hotel after someone tipped me off that police were 
coming to my hotel to question me. I wanted to leave before they 
arrived so that my notes and photographs would not be destroyed or 
confiscated, which would have been a serious setback in my reporting on 
this issue.
    Foreign journalists who work in China all have had similar 
experiences.
    It's important that the world be well-informed about what's going 
on in China, not just in terms of economic and business news, but also 
about many other issues that have an impact outside of China's borders, 
and which affect people around the world. In recent years, China has 
tried to minimize or cover up issues such as AIDS, milk contamination, 
tainted animal foods, toxic toothpaste, dangerous pirated products, and 
heavy metals pollution of rice, vegetables and fruits. These are issues 
that can directly affect the well-being of consumers and citizens 
around the world and journalists should have the right to write about 
these issues.
    It's important to note that China's attempt to control the message 
is not limited to just the foreign media. Its own journalists and 
citizens lack freedom of expression, many prominent international 
scholars are refused visas to travel to China, and those who are given 
access often worry about crossing some invisible line. International 
companies, organizations and NGOs are intimidated and thus often 
reluctant to speak honestly for fear of being criticized.
    As a result, the international media is often the only source of 
objective reporting about China, for both the world and China itself. 
In many cases, reports by the international media filter back into 
China, providing Chinese citizens with news they may not otherwise have 
had access to. If fact, Chinese officials themselves would not be aware 
of some serious issues if they were not reported by the international 
media. If this voice is silenced, the world will be seriously limited 
in its ability to understand China.
    In the past, governments and organizations have tried to use polite 
persuasion to convince China to stop its intimidation of the 
international media. Unfortunately, this has not worked. In fact, the 
situation has seriously deteriorated in recent years. I don't think 
that China will change it's attitude unless some stronger steps are 
taken to stop its unfair treatment of the media.
    Many people are opposed to a tit-for-tat visa policy against 
Chinese journalists, arguing that this would go against the traditional 
American respect for freedom of the media. I don't want to see my 
Chinese colleagues prevented from reporting in the United States. 
However, delaying visas for Chinese journalists or for media and 
propaganda officials who are not involved in the daily work of 
journalism would send a clear signal to Beijing.
    Despite arguments that reciprocal polices can't have any impact on 
China, there are precedents for this. I've heard of several cases in 
which foreign governments have delayed issuing visas to Chinese 
journalists and officials in retaliation for such policies, and in 
these cases, China immediately backed down.
    I'm concerned that Beijing has been emboldened by the failure of 
governments and news organizations to challenge it's unfair treatment 
of the media, and that the situation will worsen unless some concrete 
actions are taken.
    The Chinese government is able to act the way it does because media 
organizations and foreign governments have been reluctant to go public 
with such abuses, instead relying on polite diplomacy behind closed 
doors. Something can be done to improve this situation, but it's going 
to take more than just quietly expressing displeasure.
    Some two dozen American journalists at the New York Times and 
Bloomberg News are now facing imminent expulsion over the coming days 
and weeks, a move that would cripple the ability of these two US news 
organizations to continue to function in China and provide the world 
with accurate news that people need.
    It's urgent that the US government immediately adopt measures to 
deal with this rapidly worsening situation.
    Thank you.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
